The Office of Inspector General (OIG) Hotline is a convenient mechanism
employees, contractors, and others can use to report instances of suspected fraud,
waste, abuse, and mismanagement within the FDIC and its contractor operations.
The OIG maintains a toll-free, nationwide Hotline (1-800-964-FDIC), electronic
mail address (IGhotline@FDIC.gov), and postal mailing address. The Hotline is
designed to make it easy for employees and contractors to join with the OIG in its
efforts to prevent fraud, waste, abuse, and mismanagement that could threaten the
success of FDIC programs or operations.




To learn more about the FDIC OIG and for complete copies of audit
and evaluation reports discussed in this Semiannual Report, visit our
homepage: http://www.fdicig.gov




                                                                                     SEMIANNUAL REPORT TO THE
Federal Deposit Insurance Corporation
Office of Inspector General
801 17th St., NW Washington, D.C. 20434
                                                                                     CONGRESS                                April 1, 2005 – September 30, 2005




                                                                                     OFFICE OF INSPECTOR GENERAL
                                                                                     FEDERAL DEPOSIT INSURANCE CORPORATION
          Congratulations!
             The OIG congratulates all award recipients!
OIG Staff Receive PCIE Awards                             The audit team of Michael Lombardi, Joyce
for Excellence                                            Cooper, Rhoda Allen, DeGloria Hallman,
The evaluation team of Marshall Gentry,                   Philip Hodge, Jeffery Smullen, Larry Jones,
Ann Lewis, Loretta Weibel, Steve Beard, and               Diana Chatfield, Steve Beard, and Adriana
Adriana Vosburg received an award for their               Vosburg received an award for their out-
outstanding work on the complex evaluation                standing work on the congressionally
of the FDIC’s approach for supervising lim-               requested audit of the FDIC’s supervision of
ited-charter depository institutions.                     a financial institution’s compliance with the
                                                          Bank Secrecy Act.




L to R: Stephen Beard, Ann Lewis, Marshall Gentry,        L to R: Stephen Beard, Philip Hodge, DeGloria Hallman,
Loretta Weibel, and Russell Rau. Not pictured - Adriana   Diana Chatfield, Joyce Cooper, Mike Lombardi, and
Vosburg.                                                  Russell Rau. Not pictured - Rhoda Allen, Adriana
                                                          Vosburg, Jeffery Smullen, and Larry Jones.


                   Sharon Tushin received a                                   The OIG Congratulates
                   PCIE Award for                                             Former Inspector General
                   Excellence, along with                                     Gaston L. Gianni, Jr.
                   other members of the                                       In recognition of Gaston’s
                   Inspector General E-                                       contributions to the
                   Learning Steering                                          Inspector General com-
                   Committee, for their                                       munity and his lifelong
                   groundbreaking efforts in                                  commitment to efficient
                   launching the SkillSoft                                    and effective government,
pilot e-learning program for the federal                  the PCIE has renamed one of its most presti-
Inspector General community.                              gious awards in his honor. The Gaston L.
                                                          Gianni, Jr. Better Government Award will be
                                                          given annually to recognize persons who
                                                          contribute to attaining the ideals of the
                                                          Inspector General Act and work to improve
                                                          the public’s confidence in government.
SEMIANNUAL REPORT TO THE


CONGRESS                 April 1, 2005–September 30, 2005




              OFFICE OF INSPECTOR GENERAL
              FEDERAL DEPOSIT INSURANCE CORPORATION
                                                                             Contents

Inspector General’s Statement........................................................................................................................1
Overview .........................................................................................................................................................3
Highlights........................................................................................................................................................5
Management and Performance Challenges ...................................................................................................7
Investigations: Making an Impact................................................................................................................25
OIG Organization: Pursuing OIG Goals .....................................................................................................41
Fiscal Year 2005 Performance Report Summary .........................................................................................49
Reporting Requirements...............................................................................................................................51
Reader’s Guide to Inspector General Act Reporting Terms ........................................................................52
Statistical Information Required by the Inspector General Act of 1978, as amended...............................54
Farewell to OIG Retirees...............................................................................................................................60
Abbreviations and Acronyms .......................................................................................................................62
Tables
Table 1: Significant OIG Achievements.....................................................................................................47
Table 2: Nonmonetary Recommendations ...............................................................................................47
Figures
Figure 1: FDIC Security Assurance Trend Analysis....................................................................................11
Figure 2: Office of Investigations Case Distribution..................................................................................26
Figure 3: Products Issued and Investigations Closed .................................................................................47
Figure 4: Questioned Costs/Funds Put to Better Use.................................................................................48
Figure 5: Fines, Restitution, and Monetary Recoveries Resulting from OIG Investigations....................48



                                                                                                                                                                 iii
                                                 Inspector General’s
                                                 Statement

The past semiannual reporting period has         Service on the case since that time. Given the
been marked by significant organizational        losses to the fund, consumers, and uninsured
change in the Office of Inspector General        depositors, as well as the message the convic-
(OIG). Three members of our senior               tions send about the government’s refusal to
management team retired, and several reor-       tolerate such criminal activity, it was a worthy
ganizations, planned office closings, and        investment.
changes in leadership responsibilities have
been announced. Other OIG staff retired or       On the audit side, we conducted extensive
left to pursue different opportunities, and      work and issued three products to satisfy our
through a buyout program offered by the          Federal Information Security Management
OIG, six additional members of the OIG will      Act reporting responsibilities. We reported
be leaving our office at the end of the calen-   that the FDIC has made significant progress
dar year. Thus, our staff has been adjusting     in improving its information security controls
to a significantly different working environ-    and practices and additional improvements
ment, and I am proud of their continued          were underway at the time of our evaluation.
focus on the OIG mission and impressive          We identified no significant deficiencies as
results during this time of flux.                defined by the Office of Management and
                                                 Budget that warranted consideration as a
To illustrate, during the reporting period, we   potential material weakness. We identified
achieved great success with a significant case   seven steps that the Corporation can take to
involving a failed institution—BestBank.         enhance its information security program
A Denver jury returned guilty verdicts on        and practices, and we continue to coordinate
63 counts—bank fraud, operating a continu-       closely with FDIC management on corporate
ing financial crimes enterprise, making false    information security efforts.
bank reports, and wire fraud—against two
people involved in a complex financial insti-    From an overall OIG perspective, and as sum-
tution and consumer fraud that led to the        marized in the Organization section of this
1998 failure of BestBank and concomitant         semiannual report, we completed our Fiscal
$200 million loss to the Bank Insurance          Year 2005 Performance Report, which meas-
Fund. We have been working with the              ures our progress in achieving 37 goals. These
Department of Justice, the Federal Bureau        goals emphasize (1) adding value by achieving
of Investigation, and the Internal Revenue       impact on issues of importance to the Corpo-


                                                                                                    1
    ration and our other stakeholders; (2) foster-   center staffed 24 hours a day, 7 days a week,
    ing effective communications with our stake-     by FDIC volunteers. The goal was to assist
    holders; (3) aligning human resources            bank customers with a wide range of prob-
    to support the OIG mission; and (4) manag-       lems, such as how to access their accounts,
    ing our resources effectively. We met or         and to gather and convey information
    substantially met 31, or 84 percent, of the      regarding the operations of affected institu-
    37 goals. We also completed our seventh          tions. A number of other initiatives to help
    client survey to solicit views of corporate      bankers through the hurricane’s aftermath
    management on the products and processes         are underway. Significantly, as we were going
    of our office. Both of these initiatives are     to press, after more than 4 years with the
    helping to guide us as we pursue a new           FDIC, Chairman Donald Powell was named
    approach to planning the future direction        by the President to serve as the federal coor-
    and strategic focus of our office.               dinator for long-term hurricane recovery
                                                     efforts and will soon be leaving the Corpora-
    In connection with the changing environ-         tion. We wish him well in this critical
    ment of the OIG, I must also mention the         endeavor.
    many changes that the Corporation as a
    whole has experienced over the past months,      The OIG also took a number of actions
    particularly in its governance structure.        in response to the hurricane, including
    Former Vice Chairman John Reich is now           participating in the Department of Justice
    the Director of the Office of Thrift Supervi-    Hurricane Katrina Fraud Task Force,
    sion and in that new capacity continues to       communicating with other federal Inspec-
    be a member of the FDIC Board, along with        tors General about the governmentwide
    newly appointed Director John Dugan, the         response to the storm, creating a Web page
    Comptroller of the Currency. Martin Gru-         for financial institutions and consumers to
    enberg assumed his position as Vice Chair-       report instances of fraud, providing volun-
    man of the FDIC in August 2005, and it has       teer resources in support of the Center for
    been a pleasure to work with him, particu-       Missing and Exploited Children, and meet-
    larly in his new role as Chairman of the         ing with audit representatives from other
    FDIC Audit Committee. I look forward to          financial regulatory OIGs to coordinate
    continued coordination with him and other        possible future work related to relief and
    senior leadership of the FDIC as we all seek     rebuilding activities. I appreciate the com-
    to ensure stability and public confidence in     mitment and concern of all OIG staff who
    the nation’s financial system.                   have stepped up to help. In the true spirit of
                                                     public service, we will continue to monitor
    Finally, a disastrous event occurred in early    the impact of Katrina on the financial serv-
    September that could have undermined that        ices industry and do whatever we can to
    very stability and public confidence in the      assist fellow citizens in the aftermath of this
    Gulf Coast region—Hurricane Katrina. The         tragedy.
    FDIC responded promptly by establishing a




                                                     Patricia M. Black
                                                     Deputy Inspector General
                                                     October 31, 2005




2
                                               Overview


Management and                                 ■   Money Laundering and Terrorist
                                                   Financing
Performance Challenges
                                               ■   Protection of Consumer Interests
The Management and Performance Chal-
lenges section of our report presents OIG      ■   Corporate Governance in the FDIC
results of audits, evaluations, and other
reviews carried out during the reporting       ■   Resolution and Receivership Activities
period in the context of the OIG’s view of
the most significant management and per-       OIG work conducted to address these areas
formance challenges facing the Corporation.    during the current reporting period includes
We identified the following seven manage-      23 audit and evaluation reviews containing
ment and performance challenges and, in        questioned costs of $981,355 and 39 non-
the spirit of the Reports Consolidation Act    monetary recommendations; investigations
of 2000, we presented our assessment of        addressing a number of the areas of chal-
them to the Chief Financial Officer of the     lenge; comments and input to the Corpora-
FDIC in December 2004. The Act calls           tion’s draft policies in significant operational
for these challenges to be presented in the    areas; participation at meetings, symposia,
FDIC’s consolidated performance and            conferences, and other forums to jointly
accountability report. The FDIC includes       address issues of concern to the Corporation
such reporting as part of its Annual Report.   and the OIG; and other assistance provided
Our work has been and continues to be          to the Corporation. (See pages 7-24.)
largely designed to address these challenges
and thereby help ensure the FDIC’s success-
ful accomplishment of its mission.             Investigations:
                                               Making an Impact
■   Corporate Governance in Insured
                                               In the Investigations section of our report,
    Depository Institutions
                                               we feature the results of work performed by
■   Management and Analysis of Risks           OIG agents in Washington, D.C.; Atlanta;
    to the Insurance Funds                     Dallas; and Chicago. OIG agents conduct
                                               investigations of alleged criminal or other-
■   Security Management                        wise prohibited activities impacting the


                                                                                                  3
       FDIC and its programs. In conducting              mary of our Fiscal Year 2005 Performance
       investigations, the OIG works closely with        Report. (See pages 41-50.)
       U.S. Attorneys’ Offices throughout the coun-
       try in attempting to bring to justice individu-
       als who have defrauded the FDIC. The legal        Statistical Information
       skills and outstanding direction provided by      The Appendix of our report contains much
       Assistant United States Attorneys with whom       of the statistical information required under
       we work are critical to our success. The          the Inspector General Act, as amended. (See
       results we are reporting for the last 6 months    pages 54-59.)
       reflect the efforts of U.S. Attorneys’ Offices
       throughout the United States. Our write-ups
       also reflect our partnering with the Federal      Other Material
       Bureau of Investigation, the Internal Rev-
       enue Service, and other law enforcement           We bid farewell to retired OIG staff members
       agencies in conducting investigations of joint    whose contributions to our office are very
       interest. Additionally, we acknowledge the        much appreciated. We also provide a listing
       invaluable assistance of the FDIC’s Divisions     of abbreviations and acronyms. Finally, we
       and Offices with whom we work closely to          congratulate 2005 President’s Council on
       bring about successful investigations.            Integrity and Efficiency Award Winners.
                                                         (See pages 60-end.)
       Investigative work during the period led
       to indictments or criminal charges against
       22 individuals and convictions of 19 defen-
       dants. Criminal charges remained pending
       against 34 individuals as of the end of the
       reporting period. Fines, restitutions, and
       recoveries resulting from our cases totaled
       approximately $5.4 million. This section of
       our report also includes a brief update on the
       work of our Electronic Crimes Unit and cites
       acknowledgements given to several of our
       Special Agents and to others with whom we
       work. (See pages 25-40.)


       OIG Organization:
       Pursuing OIG Goals
       In the Organization section of our report,
       we note some of the significant internal
       activities that the FDIC OIG has pursued
       during the past 6 months in furtherance of
       our four strategic goals and corresponding
       objectives. These activities complement and
       support the audit, evaluation, and investiga-
       tive work discussed in the earlier sections of
       our report. Activities of OIG Counsel and
       cumulative OIG results covering the past
       five reporting periods are also shown in this
       section. In the interest of transparency and
       accountability, we are also providing a sum-


4 SEMIANNUAL REPORT TO THE CONGRESS
                                                  Highlights

■   The Office of Audits issues 23 reports con-       policies and directives, and responds to
    taining total questioned costs of $981,355        4 requests under the Freedom of Informa-
    and 39 nonmonetary recommendations                tion Act. Substantive comments are
    to improve corporate operations and               provided to the Corporation related to
    activities. Among these are recommenda-           proposed policies on various aspects of
    tions to strengthen the compliance exami-         information technology security risk
    nation process, enhance the central data          management and the risk-related
    repository project management, and                premium system.
    strengthen controls related to FDIC
    employee travel.                              ■   The OIG completes its fifth FDIC
                                                      information security evaluation, noting
■   OIG investigations result in 22 indict-           the Corporation’s significant progress
    ments/informations; 19 convictions; and           in strengthening security controls and
    approximately $5.4 million in total fines,        practices.
    restitution, and other monetary recover-
    ies.                                          ■   The OIG coordinates with and assists
                                                      management on a number of initiatives,
■   OIG Counsel provides advice and counsel           including Office of Investigations and
    to OIG staff on a number of issues,               Office of Audits Executives’ participation
    including applicability of privacy-related        at Division and Office meetings, adminis-
    laws and regulations to the FDIC, and             tration of the OIG’s seventh client survey,
    banking law matters related to compliance         and presentations as part of the Corporate
    examinations and corrective and enforce-          Employee Program.
    ment actions. Counsel is involved in
    28 litigation matters, 3 of which were        ■   The OIG announces and implements
    resolved during the reporting period              downsizing and reorganization initiatives
    and the remainder of which are awaiting           and takes step to enhance officewide
    further action.                                   strategic planning efforts.

■   The OIG reviews and comments on 3 pro-        ■   The OIG accomplishes a number of
    posed formal regulations, 1 legislative           internal office initiatives, including estab-
    proposal—the Personal Data Privacy and            lishing a mentoring program, actively
    Security Act of 2005, 16 proposed FDIC            participating in e-learning opportunities,

                                                                                                      5
           and participating in numerous intera-
           gency working groups and roundtables
           through the President’s Council on
           Integrity and Efficiency.

       ■   OIG Special Agent is acknowledged by
           the U.S. Attorney’s Office, District of
           Connecticut, for exemplary work in
           a joint investigation with the Federal
           Bureau of Investigation and the Internal
           Revenue Service Criminal Investigation
           Division in the prosecution of the former
           Chairman of the Board of Directors of
           Connecticut Bank of Commerce.

       ■   The OIG issues its Fiscal Year 2005 Perfor-
           mance Report wherein we report that we
           met or substantially met 84 percent of our
           performance goals.

       ■   The OIG coordinates with corporate man-
           agement to address an incident involving
           unauthorized release of FDIC employee
           data and meets with congressional staff to
           discuss the matter. The OIG initiates sev-
           eral assignments related to protection of
           personal information – both internal to
           the FDIC and with respect to the institu-
           tions it supervises.

       ■   The OIG formulates the audit and evalua-
           tion assignment plan for fiscal year 2005
           and consults and coordinates with FDIC
           management and congressional staff in
           doing so.




6 SEMIANNUAL REPORT TO THE CONGRESS
                                              Management and
                                              Performance
                                              Challenges

                                              In the spirit of the Reports Consolidation
                                              Act of 2000, and to provide useful perspec-
The Federal Deposit Insurance Corpora-        tive for readers, we present a large body
tion (FDIC) is an independent agency cre-     of our work in the context of “the most
ated by the Congress to maintain stability    significant management and performance
and confidence in the nation’s banking        challenges” facing the Corporation. The Act
                                              calls for these challenges to be included in
system by insuring deposits, examining
                                              the consolidated performance and accounta-
and supervising financial institutions, and   bility reports of those federal agencies to
managing receiverships. Approximately         which it applies.
4,545 individuals within seven specialized
operating divisions and other offices         In December 2004, we updated our assess-
                                              ment of these challenges and provided them
carry out the FDIC mission throughout
                                              to the Corporation. The 7 challenges we
the country. According to most current        have identified are listed below. In the past
data in the Corporation’s Letter to Stake-    several years, we identified 10 challenges. As
holders, issued for the 3rd Quarter 2005,     part of our December 2004 assessment, we
the FDIC insured $3.757 trillion in           consolidated a number of the challenges into
deposits for 8,881 institutions, of which     “Corporate Governance in the FDIC” and
                                              introduced “Money Laundering and Terror-
the FDIC supervised 5,257. The Corpora-
                                              ist Financing” as a new challenge.
tion held insurance funds of $48 billion to
ensure depositors are safeguarded. The        The Corporation has a number of actions
FDIC had $475 million in assets in liquida-   underway to address many of the issues
tion in 28 Bank Insurance Fund and Sav-       discussed below, and we encourage contin-
                                              ued attention to each challenge. We will
ings Association Insurance Fund
                                              continue to conduct audits, evaluations,
receiverships.                                investigations, and other reviews related
                                              to these challenges and look forward to
                                              continuing to work cooperatively with the
                                              Corporation as we do so.




                                                                                               7
       We identified the following challenges, and      With respect to financial institutions, in
       the Corporation included them in its 2004        some cases, dominant officials have exercised
       Annual Report:                                   undue control over operations to the institu-
                                                        tion’s detriment. In other cases, independent
       1. Corporate Governance in Insured               public accounting firms rendered clean opin-
         Depository Institutions                        ions on the institutions’ financial statements
                                                        when, in fact, the statements were materially
       2. Management and Analysis of Risks              misstated. Such events have increased public
         to the Insurance Funds                         concern regarding the adequacy of corporate
       3. Security Management                           governance and, in part, prompted passage
                                                        of the Sarbanes-Oxley Act of 2002. This Act
       4. Money Laundering and Terrorist                has focused increased attention on manage-
         Financing                                      ment assessments of internal controls over
                                                        financial reporting and the external auditor
       5. Protection of Consumers’ Interests            attestations of these assessments. Strong
                                                        stewardship along with reliable financial
       6. Corporate Governance in the FDIC
                                                        reports from insured depository institutions
       7. Resolution and Receivership Activities        are critical to FDIC mission achievement.

                                                        The FDIC has initiated various measures
       Corporate Governance                             designed to mitigate risks posed by these
                                                        concerns, such as reviewing the bank’s
       in Insured Depository                            board activities and ethics policies and
       Institutions                                     practices and reviewing auditor independ-
                                                        ence requirements. In fact, many of the Sar-
       Corporate governance is generally defined
                                                        banes-Oxley Act requirements parallel those
       as the fulfillment of the broad stewardship
                                                        already applicable to the FDIC under the
       responsibilities entrusted to the Board of
                                                        FDIC Improvement Act. The FDIC also
       Directors, officers, and external and internal
                                                        reviews the publicly traded companies’
       auditors of a corporation. A number of well-
                                                        compliance with Securities and Exchange
       publicized announcements of business and
                                                        Commission regulations and the approved
       accountability failings, including those of
                                                        and recommended policies of the Federal
       financial institutions, have raised questions
                                                        Financial Institutions Examination Council
       about the credibility of management over-
                                                        to help ensure accurate and reliable financial
       sight and accounting practices in the United
                                                        reporting through an effective external
       States. In certain cases, board members and
                                                        auditing program and on-site FDIC exami-
       senior management engaged in high-risk
                                                        nation.
       activities without proper risk management
       processes, did not maintain adequate loan        Our investigative work is one way of address-
       policies and procedures, and circumvented        ing corporate governance issues. In a num-
       or disregarded various laws and banking          ber of cases, financial institution fraud is
       regulations. In an increasingly consolidated     a principal contributing factor to an institu-
       financial industry, effective corporate gover-   tion’s failure. Unfortunately, the principals
       nance is needed to ensure adequate stress        of some of these institutions—that is, those
       testing and risk management processes            most expected to ensure safe and sound
       covering the entire organization. Adequate       corporate governance—are at times the
       corporate governance protects the depositor,     parties perpetrating the fraud. Our Office
       institution, nation’s financial system, and      of Investigations plays a critical role in
       FDIC in its role as deposit insurer. A lapse     addressing such activity. (See the Investiga-
       in corporate governance can lead to a rapid      tions section of this report for specific exam-
       decline in public confidence, with potentially   ples of bank fraud cases involving corporate
       disastrous results to the institution.           governance weaknesses.)


8 SEMIANNUAL REPORT TO THE CONGRESS
Management and Analysis of                         evaluating policy options to ensure that
                                                   institutions and the industry as a whole
Risks to the Insurance Funds                       maintain adequate capital and reserves.
A primary goal of the FDIC under its insur-        Meanwhile, the FDIC and other regulators
ance program is to ensure that its deposit         must work to ensure that they have staff with
insurance funds do not require augmenta-           necessary expertise to understand and evalu-
tion by the U.S. Treasury. Achieving this          ate the adequacy of the institutions’ capital
goal is a challenge that requires effective        models.
communication and coordination with the
other federal banking agencies. The FDIC           Another area of challenge for the Corpora-
engages in an ongoing process of proactively       tion relates to industrial loan companies
identifying risks to the deposit insurance         (ILCs). The FDIC is the primary federal
funds and adjusting the risk-based deposit         regulator for a number of ILCs, which are
insurance premiums charged to the institu-         insured depository institutions owned by
tions. The consolidations that have occurred       organizations that are subject to varying
among banks, securities firms, insurance           degrees of federal regulation. ILC charters
companies, and other financial services            allow mixing of banking and commerce
providers resulting from the Gramm-Leach-          which is otherwise prohibited for most other
Bliley Act involve increasingly diversified        depository institutions owned by commer-
activities and associated inherent risks.          cial firms.

In some instances, bank mergers have               Finally, there has been ongoing congressional
created “large banks,” which are generally         consideration to merging the Bank Insurance
defined as institutions with assets of over        Fund (BIF) and Savings Association Insur-
$25 billion. As of June 30, 2005 the 25 largest    ance Fund (SAIF) in the hope that the
banks controlled $5.64 trillion (54 percent)       merged fund would not only be stronger
of total bank assets in the country. The           and better diversified but would also elimi-
FDIC is the primary federal regulator for          nate the concern about a deposit insurance
only 2 of these 25 institutions.                   premium disparity between the BIF and
                                                   the SAIF. Assessments in the merged fund
To address the risks associated with large         would be based on the risk that institutions
banks for which the FDIC is the insurer            pose to that fund. The prospect of different
but is not the primary federal regulator, the      premium rates for identical deposit insur-
FDIC has established the Large Bank Section        ance coverage would be eliminated. The
in the Division of Supervision and Con-            Corporation has worked hard to bring about
sumer Protection (DSC). A key effort is            deposit insurance reform and, as of the end
the Dedicated Examiner Program for the             of the reporting period, was expecting Con-
largest banks in the United States. One sen-       gressional action in this regard.
ior examiner from the FDIC is dedicated to
each institution and participates in targeted      Our work in this area included the following
reviews or attends management meetings.            three audits.
Additionally, case managers closely monitor
such institutions through the Large Insured
Depository Institutions Program’s quarterly        MERIT Eligibility Process
analysis and executive summaries and con-
sistently remain in communication with             The FDIC’s DSC is responsible for conduct-
their counterparts at the other regulatory         ing streamlined safety and soundness exami-
agencies.                                          nations under the Maximum Efficiency,
                                                   Risk-focused, Institution Targeted (MERIT)
For large banks, under Basel II, capital will be   examination guidelines. Under MERIT, an
determined by the banks’ internal estimates        FDIC Examiner-in-Charge determines the
of risk. The FDIC and other regulators are         eligibility of an institution for a safety and


                                                                     Management and Performance Challenges 9
       soundness examination under MERIT                 Effectiveness of Supervisory
       guidelines during the pre-examination plan-       Corrective Actions
       ning phase by applying MERIT eligibility
       criteria to the FDIC’s knowledge of an insti-     The FDIC uses a number of tools to address
       tution, its size, complexity, and risk profile.   supervisory concerns related to the safety
       To place this program in perspective, from        and soundness of financial institutions and
       May 1, 2002, through September 30, 2004,          their compliance with laws and regulations.
       the FDIC conducted 2,290 MERIT examina-           These tools range from informal advice and
       tions.                                            written agreements to formal actions that are
                                                         legally enforceable. Supervisory corrective
       During the reporting period, we conducted         actions are tailored to each situation and
       an audit to determine whether the FDIC’s          address the specific problems at an institu-
       process for determining an institution’s          tion.
       eligibility for an examination under MERIT
       guidelines adequately considered the appro-       We conducted an audit to determine
       priate risk factors, and we concluded that it     whether supervisory corrective actions
       did. The MERIT eligibility criteria include a     taken against FDIC-supervised institutions
       range of appropriate banking risk indicators      achieved the intended purposes before
       that should identify those institutions with      being terminated. Our audit focused on the
       a higher risk profile that do not qualify         FDIC’s use of Cease and Desist orders and
       for a streamlined examination. Also, about        Memorandums of Understanding – two
       18 months after launching this streamlined        of the more commonly used supervisory
       examination program, the FDIC conducted           corrective actions. We found that sufficient
       an evaluation of the MERIT guidelines that        controls are in place and operating effectively
       resulted in expanding, strengthening, and         to ensure that supervisory corrective actions
       revising the MERIT eligibility criteria.          achieve their intended purposes before being
       Further, for the examinations we reviewed,        terminated.
       examiners adequately applied the FDIC’s
       MERIT eligibility criteria and screening          We also found that DSC could improve the
       process performed during pre-examination          timeliness and completeness of data in its
       planning to provide reasonable assurance          Formal and Informal Action Tracking system
       that only low-risk institutions qualified for     (FIAT). Information for 14 of the 15 actions
       a MERIT examination.                              we reviewed often was not entered into the
                                                         system in a timely or complete manner. In
       However, we found that the 33 pre-examina-        addition, the system did not include formal
       tion planning memoranda we reviewed did           enforcement actions that state regulators
       not always clearly reflect the decisions made     independently issued to FDIC-supervised
       about an institution’s MERIT eligibility. In      institutions. As a result, DSC cannot fully
       our view, additional information reflecting       rely on the FIAT data and management
       the MERIT eligibility decision would in-          reports for monitoring supervisory correc-
       crease assurance that the MERIT criteria are      tive actions.
       adequately considered and that examination
       procedures are planned commensurate with          Our report contains three recommendations
       the relevant existing and potential risks at an   intended to improve the timeliness and com-
       institution. We therefore made two recom-         pleteness of FIAT data. FDIC management
       mendations for updating and clarifying pre-       agreed with the recommendations.
       examination planning guidance. FDIC
       management concurred with both of them.




10 SEMIANNUAL REPORT TO THE CONGRESS
Capital Provisions Established                                         ingly sophisticated security threats requires a
Under Supervisory Corrective                                           strong, enterprise-wide information security
                                                                       program at the FDIC and insured depository
Actions                                                                institutions. It also requires compliance with
We conducted an audit to determine                                     applicable statutes and policies aimed at pro-
whether DSC’s process is adequate for                                  moting information security throughout the
determining capital provision requirements                             federal government. One such statute is Title
established under supervisory corrective                               III of the E-Government Act of 2002, com-
actions for problem banks.                                             monly referred to as the Federal Information
                                                                       Security Management Act of 2002 (FISMA).
We concluded that DSC has been successful                              As a result of focused efforts over the past
in using capital provisions as part of overall                         several years, and as illustrated in Figure 1,
supervisory actions to improve the financial                           the FDIC has made significant progress in
structure of problem institutions, and its                             improving its information security controls
related processes are adequate. Also, examin-                          and practices and addressing current and
ers were analyzing capital adequacy and the                            emerging information security requirements
bank’s adherence to supervisory corrective                             mandated by FISMA.
action capital provisions in accordance with
DSC policies. We also found, however, that                             Also with respect to security management,
supervisory personnel were not recommend-                              the FDIC and insured depository institutions
ing capital provisions that encompass all of                           need to continue to ensure that sound disas-
the Prompt Corrective Action (PCA) capital                             ter recovery and business continuity plan-
ratios. As a result, the established capital                           ning is present to safeguard depositors,
provisions did not ensure that banks stay                              investors, and others who depend on the
adequately capitalized as defined by the PCA                           financial services.
capital categories.

We recommended that DSC revise
guidance to supervisory personnel                             Figure 1: FDIC Security Assurance Trend Analysis
regarding the use and consideration of
PCA capital ratios in the formulation                          100%
and recommendation of capital provi-
sion requirements. DSC generally
concurred with the findings of the
report and agreed to implement the
recommendation.
                                                                50%

Security Management
The FDIC relies heavily upon auto-
mated information systems to collect,
process, and store vast amounts of
banking information. This informa-                  0%
tion is used by financial regulators,                           2001                2002                2003                2004                 2005
academia, and the public to assess                             Reasonable  Assurance              Limited Assurance            Minimal/No  Assurance

market and institution conditions,
                                                Source: Annual FDIC OIG evaluations of the FDIC’s information security program. (Evaluations in 2001 and 2002
develop regulatory policy, and conduct          were done pursuant to legislation preceding FISMA. In 2003, we did more in-depth work in 3 areas, in response
research and analysis on important              to new FISMA requirements.)

banking issues. Ensuring the confi-
dentiality, integrity, and availability of this
information in an environment of increas-


                                                                                                Management and Performance Challenges 11
       Federal Information                               tions. This system contains examination
       Security Management Act                           and supervisory action information that
                                                         is considered highly sensitive and is not
       We issued three products to satisfy our           available to the public. The insurance pre-
       FISMA reporting responsibilities: an Office       mium assessed to each institution is based
       of Management and Budget (OMB) Security           on the balance of assessable deposits held
       Questions Report, a Privacy Information           during the preceding two quarters and on
       Report, and our comprehensive Security            the degree of risk the institution poses to the
       Evaluation Report with Scorecard. We              BIF or the SAIF. The FDIC uses a risk-based
       reported that the FDIC has made significant       premium system that assesses higher rates on
       progress in improving its information secu-       those institutions that pose greater risks to
       rity controls and practices and additional        the insurance fund.
       improvements were underway at the time
       of our evaluation. We identified no signifi-      The RRPS calculates assessment rates based
       cant deficiencies as defined by the OMB that      on data from such sources as the institutions’
       warrant consideration as a potential material     Call Reports; Thrift Financial Reports; exam-
       weakness. We did note, however, that man-         ination data from the FDIC, Office of the
       agement attention is needed in several key        Comptroller of the Currency, Federal
       security control areas to ensure that appro-      Reserve Board, and Office of Thrift Supervi-
       priate risk-based and cost-effective security     sion; and input from FDIC personnel. In
       controls are in place to secure the FDIC’s        an audit we conducted during the period, we
       information resources and further the             wanted to determine whether the RRPS
       Corporation’s security goals and objectives.      application provides the appropriate level of
       Consequently, we concluded that the FDIC          confidentiality, data integrity, and availability
       had established and implemented manage-           through the use of effective management,
       ment controls that provided limited assur-        operational, and technical controls.
       ance over its information resources.
                                                         We concluded that the controls for the RRPS
       We identified steps that the Corporation can      provide reasonable assurance of adequate
       take to strengthen its information security       security. Additionally, in August 2005, the
       program and practices. These related to:          FDIC started the certification and accredita-
       enhancing the FDIC’s inventory of informa-        tion process for the RRPS, which includes
       tion systems and categorizing the systems         extensive testing of the key controls.
       based on impact levels; enhancing the infor-
       mation security risk management program;          Although key application controls generally
       improving contractor oversight and the            operated as intended, we identified several
       effectiveness of disaster recovery tests; and     deficiencies that posed risks to the confiden-
       integrating security standards in the enter-      tiality, integrity, and availability of the sys-
       prise architecture and better integrating         tem:
       security processes.
                                                         ■   the RRPS security plan did not fully and
       The Corporation has begun to develop plans            accurately describe the current manage-
       of action and milestones to address the               ment, operational, and technical controls;
       actions we suggested.
                                                         ■   a software configuration management
                                                             plan was not fully developed or imple-
                                                             mented; and
       Controls Over the Risk-Related
       Premium System                                    ■   read and write access rights of RRPS users
       The Risk-Related Premium System (RRPS)                were not periodically reviewed.
       is the FDIC’s system of record for the risk
       assessment classification of financial institu-


12 SEMIANNUAL REPORT TO THE CONGRESS
We therefore made three recommendations          We made five recommendations to address
to address these risks. FDIC management          these matters, and management has either
agreed with the recommendations and has          initiated or plans to initiate actions to
taken actions to address them.                   address them.


Configuration Management
                                                 Money Laundering and
Controls Over Operating System                   Terrorist Financing
Software                                         The nation continues to face the global
                                                 threat of terrorism. In response to this
Configuration management is a critical           threat, the Congress enacted the Uniting
control for ensuring the integrity, security,    and Strengthening America by Providing
and reliability of information systems.          Appropriate Tools Required to Intercept and
Absent a disciplined process for managing        Obstruct Terrorism Act of 2001, Public Law
software changes, management cannot be           107-56 (USA PATRIOT Act), which expands
assured that systems will operate as intended,   the Treasury Department’s authority initially
that software defects will be minimized, and     established under the Bank Secrecy Act of
that configuration changes will be made in       1970 (BSA) to regulate the activities of
an efficient and timely manner. We engaged       U.S. financial institutions, particularly their
International Business Machines (IBM)            relations with individuals and entities with
Business Consulting to conduct an audit          foreign ties. Specifically, the USA PATRIOT
to determine whether the FDIC had estab-         Act expands the BSA beyond its original
lished and implemented configuration man-        purpose of deterring and detecting money
agement controls over its operating system       laundering to also address terrorist financing
software that were consistent with federal       activities. In today’s global banking environ-
standards and guidelines and industry-           ment, where funds are transferred instantly
accepted practices.                              and communication systems make services
                                                 available internationally, a lapse at even a
IBM’s audit concluded that the FDIC had
                                                 small financial institution outside of a major
established and implemented a number of
                                                 metropolitan area can have significant impli-
configuration management controls over
                                                 cations across the nation. The reality today
its operating system software that were
                                                 is that all institutions are at risk of being
consistent with federal standards and guide-
                                                 used to facilitate criminal activities, includ-
lines and industry-accepted practices. Such
                                                 ing terrorist financing.
controls included a software patch manage-
ment policy, a change control board, and         Through its examiners, the FDIC seeks to
periodic scanning of operating system soft-      ensure that institutions have a strong BSA
ware configurations.                             program to address money laundering and
                                                 terrorist financing concerns. While many
These actions were positive; however, control
                                                 FDIC-supervised institutions are diligent in
improvements were needed. Specifically, the
                                                 their efforts to establish, execute, and admin-
FDIC needed to establish an organizational
                                                 ister effective BSA compliance programs,
policy and system-specific procedures to
                                                 there have been instances where controls and
ensure proper configuration of operating
                                                 efforts were lacking. When such instances
system software. The FDIC also needed to
                                                 are identified in the course of examinations,
standardize and integrate the recording,
                                                 the FDIC may request bank management to
tracking, and reporting of operating system
                                                 address the deficiencies in a written response
software configuration changes to the extent
                                                 to the FDIC, outlining the corrective action
practical.
                                                 proposed and establishing a timeframe for
                                                 implementation, or the FDIC may pursue an
                                                 enforcement action.


                                                                  Management and Performance Challenges 13
       In addition, in September 2004, the Financial   examinations and Community Reinvestment
       Crimes Enforcement Network (FinCEN),            Act (CRA) evaluations. The FDIC takes
       an arm of the U.S. Treasury Department,         enforcement actions to address compliance
       signed an information-sharing Memoran-          violations, encourages public involvement in
       dum of Understanding with the federal           the community reinvestment process, assists
       banking agencies, including the FDIC. The       financial institutions with fair lending and
       Memorandum of Understanding requires            consumer compliance through education
       an increased level of BSA reporting and         and guidance, and provides assistance to
       accountability between the federal banking      various parties within and outside of the
       agencies and FinCEN. In June 2005, the          FDIC. The Corporation has also developed
       FDIC, in conjunction with the other federal     a program to examine institution compli-
       banking regulators, issued revisions to its     ance with privacy laws.
       BSA examination procedures.
                                                       The Corporation has emphasized financial
       The continuing challenge facing the FDIC is     literacy, aimed specifically at low- and
       to ensure that banks maintain effective BSA     moderate-income people who may not
       programs that will ultimately create an envi-   have had banking relationships, and the
       ronment where attempts to use the Ameri-        Corporation’s “Money Smart” initiative is
       can financial system for money laundering       a key outreach effort in that regard. In a
       or terrorist financing will be identified and   related vein, protecting consumers from
       ultimately thwarted.                            unscrupulous banking practices also contin-
                                                       ues to be a challenging aspect of consumer
       Planned OIG work for fiscal year 2006           protection.
       includes an audit to determine whether the
       FDIC is effectively using FinCEN data and       Finally, and importantly, the number of
       tools in assessing the BSA and anti-money       reported instances of identity theft has
       laundering programs of FDIC-supervised          greatly increased in recent years, and the
       financial institutions. Another audit will      consequences to consumers can be devastat-
       determine the extent to which examiners         ing. The Corporation will need to remain
       are following BSA examination procedures        vigilant in conducting comprehensive,
       for foreign transactions.                       risk-based compliance examinations that
                                                       ensure the protection of consumer interests,
                                                       analyzing and responding appropriately
       Protection of                                   to consumer complaints, and educating
                                                       individuals on money management topics,
       Consumers’ Interests                            including identity protection and how to
       In addition to its mission of maintaining       avoid becoming victims of various consumer
       public confidence in the nation’s financial     scams. A challenge facing the FDIC and
       system, the FDIC also serves as an advocate     other regulators is protecting consumer
       for consumers through its oversight of a        interests while minimizing regulatory bur-
       variety of statutory and regulatory require-    den. The FDIC, Federal Reserve Board, and
       ments aimed at protecting consumers from        Office of the Comptroller of the Currency
       unfair and unscrupulous banking practices.      jointly approved amendments to CRA regu-
       The FDIC is legislatively mandated to           lations, effective September 1, 2005, that
       enforce various statutes and regulations        preserve the importance of community
       regarding consumer protection and civil         Development in the CRA evaluations of the
       rights with respect to state-chartered, non-    banks.
       member banks and to encourage community
       investment initiatives by these institutions.

       The FDIC accomplishes its mission of
       protecting consumers under various laws
       and regulations by conducting compliance

14 SEMIANNUAL REPORT TO THE CONGRESS
DSC’s Risk-Focused Compliance                      examiners had identified violations and
Examination Process                                included them in Reports of Examination.
In June 2003, the FDIC’s DSC revised its           We recommended that DSC clarify and
program for examining institutional compli-        reinforce requirements that examiners
ance with consumer protection laws and             adequately document the scope of the work
regulations. Under the new program, DSC            performed, including transaction testing and
compliance examinations combine a risk-            spot checks of the reliability of the institu-
based examination process with an in-depth         tions’ compliance review functions, during
evaluation of an institution’s compliance          the on-site portions of compliance examina-
management system, resulting in a top-             tions. FDIC management agreed with the
down, risk-focused approach to examina-            recommendation and has taken corrective
tions. We conducted an audit to determine          action.
whether DSC’s risk-focused compliance
examination program results in examina-            Ongoing work in the consumer protection
tions that are adequately planned and              area includes an audit of the FDIC’s efforts
effective in assessing financial institution       to address predatory lending. Two other
compliance with consumer protection laws           audits are assessing (1) bank service
and regulations.                                   providers’ protection of sensitive customer
                                                   information and (2) DSC’s institution and
We found that DSC examiners generally              examination guidance for implementing
complied with the policies and procedures          data privacy and security provisions of Title
related to risk-scoping compliance examina-        V of the Gramm-Leach-Bliley Act and the
tions and that the Risk Profile and Scoping        Fair and Accurate Credit Transaction Act.
Memorandums prepared by examiners                  (See also the Investigations section of this
provided an adequate basis for planned             report regarding the Office of Investigations’
examination coverage. The examiners                consumer protection-related work.)
reviewed bank policies, procedures, disclo-
sures, and forms for compliance with
consumer protection laws and regulations           Corporate Governance
for each examination we reviewed and
planned for transaction testing or spot            in the FDIC
checks in all compliance areas over the            Corporate governance within the FDIC is
course of two consecutive examinations – a         the responsibility of the Board of Directors,
period of 2 to 6 years, depending on an insti-     officers, and operating managers in fulfilling
tution’s size and ratings. Additionally, exam-     the Corporation’s broad mission functions.
iners conducted transaction testing or spot        It also provides the structure for setting goals
checks in those areas for which violations         and objectives, the means to attaining those
had been found at previous compliance              goals and objectives, and ways of monitoring
examinations.                                      performance. Management of the FDIC’s
                                                   corporate resources is essential for efficiently
However, we found that examination                 achieving the FDIC’s program goals and
documentation did not always show the              objectives.
transaction testing or spot checks conducted
during the on-site portion of the examina-         Also, the Administration has outlined
tions, including testing to ensure the reliabil-   management initiatives for departments
ity of the institutions’ compliance review         and major agencies in the President’s
functions. Examiners also did not always           Management Agenda (PMA). These initia-
document whether the examination                   tives are (1) strategic management of
reviewed all the compliance areas in the           human capital, (2) competitive sourcing,
planned scope of review. As a result, DSC          (3) improved financial management,
cannot assure that the extent of testing was       (4) expanded electronic government, and
appropriate except for those areas in which        (5) budget and performance integration.

                                                                     Management and Performance Challenges 15
       Although the FDIC is not subject to the          in the Federal Government, which presents
       PMA, it has given priority attention to          core characteristics for successful T&D
       continuing efforts to improve operational        programs. Overall, we concluded that CU
       efficiency and effectiveness, consistent with    has addressed, to varying degrees, each of
       the PMA.                                         the following Government Accountability
                                                        Office core characteristics:
       We discuss corporate governance challenges
       at the FDIC under seven different categories     ■   Strategic alignment
       below.
                                                        ■   Leadership commitment and
                                                            communication
       Management of Human Capital                      ■   Stakeholder involvement
       Since 2002, the FDIC has been working to
       create a flexible permanent workforce that is    ■   Accountability and recognition
       poised to respond to sudden changes in the
       financial sector. FDIC executives announced      ■   Effective resource allocation
       workforce planning initiatives providing for
       human resources flexibilities, established a     ■   Partnerships and learning from others
       Corporate Employee Program, implemented
       a Buyout Program, and reorganized major          ■   Data quality assurance
       corporate divisions and functions. The
       FDIC’s training and development function,        ■   Continuous performance improvement
       known as the FDIC Corporate University
       (CU), is a key ingredient in the implementa-     With regard to cost-effectiveness of the CU
       tion of the FDIC’s Corporate Employee Pro-       structure, the FDIC’s 2005 budgeted T&D
       gram and other corporate efforts to address      costs were lower than 2002 budgeted training
       skill and competency requirements.               costs. Further, we determined that CU train-
                                                        ing costs, based on a percentage of payroll,
       The FDIC’s Corporate University                  were in line with industry benchmarks.
       In 2003, the FDIC established the CU as a        CU’s ratio of training staff to employees was
       separate FDIC office to serve as the corporate   within the range of other selected banking
       umbrella over Training and Development           regulators. Moreover, the FDIC’s ratio does
       (T&D), with responsibility for overseeing,       not consider training that CU provides to
       coordinating, and supporting the assess-         non-FDIC employees.
       ment, design, development, delivery, and
       evaluation of division and office T&D
       programs.
                                                        Competitive Sourcing
       We conducted an evaluation to assess (1) the     The FDIC awarded long-term contracts to
       degree to which CU has implemented train-        consolidate outsourced information technol-
       ing programs and other developmental             ogy activities. The contract combined
       opportunities to help the FDIC build the         approximately 40 contracts into 1 contract
       competencies needed to achieve its mission       with multiple vendors for a total program
       and strategic goals and (2) the overall cost-    value of $555 million over 10 years. The
       effectiveness of the CU structure in compari-    Corporation may face challenges in getting
       son to initial goals and industry benchmarks.    work completed and overseeing the large
                                                        task orders.
       We evaluated CU’s implementation of
       training programs and developmental              In an audit planned for fiscal year 2006,
       opportunities using the Government               we will address whether the task orders are
       Accountability Office Guide for Assessing        being awarded consistent with sound
       Strategic Training and Development Efforts       procurement practices.
16 SEMIANNUAL REPORT TO THE CONGRESS
Improved Financial Management                    the NFE implementation schedule given the
                                                 timing of planned audit tests and procedures
The FDIC fielded a new financial manage-         relative to its implementation. As a result,
ment system during 2005 designed to con-         we terminated the audit on April 6, 2005, to
solidate the operations of multiple systems.     avoid delaying NFE implementation. We
Named the New Financial Environment              issued a report during the current reporting
(NFE), this initiative seeks to modernize        period summarizing KPMG’s findings up to
the FDIC’s financial reporting capabilities.     audit termination.
Implementing NFE and interfacing other
systems with NFE has required significant        KPMG disclaimed from providing assurance
corporate efforts and resources.                 with respect to the audit objective. KPMG
                                                 was unable to collect sufficient, competent,
Two audits during the reporting period           and relevant evidence in a timely manner as
addressed NFE issues, as discussed below.        required by generally accepted government
                                                 auditing standards to provide a reasonable
NFE Testing                                      basis for audit conclusions related to the
We engaged KPMG LLP to perform an audit          audit objective.
of NFE testing. The audit concluded that the
FDIC had developed a rigorous multi-stage        KPMG expressed reservations about the lack
test strategy and schedule for the NFE to        of detailed data conversion, validation, and
ensure it would function as designed and         clean-up plans for the asset management,
meet users’ needs. However, KPMG found           general ledger, vendor, purchase order,
that improvements were needed in various         accounts receivable, and cash management
testing phases of NFE. As a result, financial    functions. Lack of detailed plans for these
management system integrity and financial        functions could have increased the likelihood
reporting risks may not have been mitigated      of errors and omissions during the conver-
to an acceptable level at the time KPMG          sion process. KPMG also noted the lack of a
completed its audit work. We provided            detailed performance test plan and omitted
details of these findings as they were identi-   tests that could have impacted or interrupted
fied to the Division of Finance (DOF) and        NFE operations. The report contained no
NFE project management team to facilitate        recommendations, and a response was not
timely corrective action and response where      required.
appropriate. We recommended that DOF
and the NFE project management team              The FDIC’s DOF responded that the conver-
review the risks identified and develop a risk   sion activity planning and execution,
resolution and action approach in accor-         coupled with the active involvement of data
dance with the risk mitigation procedures        owners from the impacted business areas in
outlined in the NFE risk management plan.        planning, testing, and validation, provided
Management’s response to our audit               a high degree of confidence that the conver-
addressed our concerns.                          sion of data would result in minimal and
                                                 manageable operational disruption and
NFE System and Data Conversion                   conversion errors. Regarding performance
As referenced in our previous semiannual         testing, management indicated that “tuning”
report, KPMG also began an audit seeking         of a few functions has continued following
to review NFE system and data conversion         NFE implementation. This process was
activities. The audit objective was to deter-    expected to continue for several months, but
mine whether systems and data conversion         no interruptions or delays in service were
plans and activities were adequate to mini-      anticipated.
mize the risk of errors and omissions during
NFE implementation. FDIC management              The FDIC’s Investment Policies
informed us that providing the OIG access        The Secretary of the Treasury requires the
to information would “definitely impact”         FDIC to invest its non-appropriated cash
                                                 held in the BIF and SAIF (hereafter, the

                                                                  Management and Performance Challenges 17
       Funds) through the Government Account                 things, whether a limit on overnight
       Series Program. The FDIC seeks to maxi-               certificates should be established.
       mize investment returns, subject to overrid-
       ing liquidity considerations. The FDIC            ■   Using the portfolio market value for
       considers liquidity requirements and current          reserve ratio calculations.
       and prospective market conditions, includ-
       ing U.S. Treasury security yields, when           ■   Adopting measurement techniques to
       developing quarterly investment strategies.           compare plans with actual results.

       We engaged the firm of Pricewaterhouse            PwC also recommended:
       Coopers, LLP (PwC) to determine whether
       the FDIC’s investment strategy and portfolio      ■   Establishing goals based on volatility as
       management procedures provide the highest             opposed to liquidity.
       possible investment returns for the FDIC,
       taking into consideration the applicable legal    ■   Retaining outside expertise to conduct
       and regulatory framework established for              periodic reviews.
       investments of the Funds.
                                                         When we issued our final report, three of our
       PwC’s audit concluded that the FDIC’s DOF         five recommendations were unresolved. As
       generally performed well in managing the          of the date of issuance of this semiannual
       FDIC’s investment portfolio in the context        report, in conjunction with FDIC program
       of the applicable legal and regulatory frame-     officials, the FDIC Audit Committee, and the
       work, stated investment strategy, interest rate   FDIC Chairman, we have resolved all mat-
       environment, and assessment of certain            ters. With respect to establishing a dollar
       insured institutions undergoing financial         limit on overnight investment holdings in
       stress. PwC also found no instances of            the BIF and SAIF in excess of the limit
       non-compliance with applicable laws and           requiring approval, management did not
       regulations.                                      agree that the additional control was needed.
                                                         The OIG continues to believe that this con-
       PwC identified opportunities for the FDIC to      trol has value; however, management has
       improve the return on its investments             given the recommendation sufficient consid-
       through two broad courses of action:              eration and provided adequate support for
                                                         its position. Regarding the retention of out-
       ■   In certain market environments, the           side experts to conduct reviews, the FDIC’s
           FDIC should decrease holdings in              management decision was that such a review
           overnight certificates and increase hold-     would be appropriate, and management has
           ings in longer-maturity securities. Such      requested the OIG to conduct an independ-
           holdings reduce the volatility of returns,    ent audit of the corporate investment pro-
           but fail to enhance liquidity, because the    gram every 3 years, including policies
           Government Account Series Program             applicable to the National Liquidation Fund.
           investments enjoy virtually perfect trans-    A final unresolved recommendation con-
           actional liquidity.                           cerned adopting measurement techniques
                                                         to compare plans with actual results. At a
       ■   Explore the possibility of changes in the     meeting with FDIC program representatives
           FDIC’s investment approach, such as           subsequent to isssuance of our final report,
           expanding the universe of allowable           we received additional information concern-
           investments.                                  ing fund performance management and
                                                         reporting. This information, together with
       The report recommended that the Corpora-          the audit results that the FDIC generally per-
       tion consider the following actions:              formed well in managing the investment
       ■   Performing an internal review of invest-
           ment policies to determine, among other

18 SEMIANNUAL REPORT TO THE CONGRESS
portfolio, supports the FDIC’s position that    Although we did not make recommenda-
sufficient action is taken to measure invest-   tions, our report suggested that in complet-
ment returns.                                   ing the new E-Government strategic plan,
                                                the Corporation be mindful of OMB’s
                                                guidance that E-Government performance
                                                measures must be linked to the Corpora-
E-Government                                    tion’s Annual Performance Plan and
The FDIC’s E-Government Strategy is a           Strategic Plan and desired outcomes of
component of the enterprise architecture        E-Government initiatives must be identified.
that focuses on service delivery for the
external customers of the FDIC. The FDIC
has initiated a number of projects that will    Risk Management and Assessment
enable the Corporation to improve internal
operations, communications, and service to      of Corporate Performance
members of the public, businesses, and other    Within the business community, there is
government offices. The projects include:       a heightened awareness of the need for a
Call Report Modernization, Virtual Supervi-     robust risk management program. Because
sory Information on the Net, Asset Servicing    of past corporate governance breakdowns
Technology Enhancement Project, NFE,            at some major corporations, organizations
Corporate Human Resources Information           are seeking a “portfolio” view of risks and
System, and FDICconnect. The risks of not       the launch of proactive measures against
implementing e-government principles are        threats that could disrupt the achievement
that the FDIC will not efficiently communi-     of strategic goals and objectives. To address
cate and serve its internal and external        these needs, a best practice has developed—
customers.                                      enterprise risk management. Enterprise risk
                                                management is a process designed to: iden-
Implementation of E-Government Principles       tify potential events that may affect the
We conducted an audit related to the FDIC’s     entity, manage identified risks, and provide
E-Government activities. We limited our         reasonable assurance regarding how identi-
work to obtaining an understanding of the       fied risks will affect the achievement of entity
FDIC’s progress on E-Government initiatives     objectives. The Office of Enterprise Risk
because the FDIC had not yet developed a        Management (OERM) is responsible for
comprehensive E-Government strategic            developing an enterprise risk management
plan.                                           program for the FDIC. The migration from
                                                internal control to enterprise risk manage-
We determined that the FDIC has made            ment perspectives and activities presents
progress in implementing various initiatives    challenges and opportunities for the FDIC.
that are consistent with E-Government
principles and implementing guidance            In the spirit of the Government Performance
from OMB. In addition, the Corporation          and Results Act of 1993, the FDIC prepares a
has taken steps to develop a comprehensive      strategic plan that outlines its mission,
E-Government strategic plan that will be        vision, and strategic goals and objectives
linked to associated corporate goals and        within the context of its three major business
objectives in areas addressed by OMB’s          lines; an annual performance plan that trans-
Scorecard and the E-Government Act              lates the vision and goals of the strategic plan
guidance. The Corporation had established       into measurable annual goals, targets, and
a milestone of December 31, 2005 for the        indicators; and an annual performance
approval of a new E-Government strategic        report that compares actual results against
plan. It actually adopted a plan in September   planned goals. In addition, the FDIC Chair-
2005.                                           man develops a supplemental set of “stretch”
                                                annual corporate performance objectives
                                                based on three strategic areas of focus that

                                                                 Management and Performance Challenges 19
       cut across the Corporation’s three business        mation. For the 2005 corporate operating
       lines: Sound Policy, Stability, and Stewardship.   budget, the FDIC used an approach that
                                                          involved senior management decisions on
       The Corporation is continually focused             strategic and annual initiatives at the onset
       on establishing and meeting annual per-            of the budget formulation exercise; provided
       formance goals that are outcome-oriented,          budget representatives planning and budget
       linking performance goals and budgetary            formulation guidelines developed through
       resources, implementing processes to verify        senior management discussion; and required
       and validate reported performance data, and        divisions and offices to review and provide
       addressing cross-cutting issues and programs       input for performance plans, performance
       that affect other federal financial institution    objectives, and proposed baseline operating
       regulatory agencies.                               budgets. This approach was an improve-
                                                          ment over the 2001 CPC process wherein the
       OIG efforts addressing risk management and         staffing, budgeting, and planning processes
       corporate performance assessment during            overlapped and were not as well integrated.
       the reporting period included the following.
                                                          Our report contained three recommenda-
       Corporate Planning Follow-Up                       tions to help ensure that divisions and offices
       In response to a request by the Corporation’s      have adequate information to review and
       Chief Financial Officer, we performed a fol-       respond to (1) proposed budgets in the
       low-up evaluation of a July 2001 study of the      areas of information technology services and
       Corporate Planning Cycle (CPC) that we had         external training and (2) requests for pro-
       conducted jointly with the FDIC Office of          posed increases or decreases to their respec-
       Internal Control Management, now OERM.             tive budgets. Another recommendation was
       The objectives of the most recent review           intended to help the FDIC communicate and
       were to: determine whether DOF has been            institutionalize the streamlined planning and
       successful in reducing resources dedicated to      budget process.
       the CPC and streamlining the CPC process;
       assess the FDIC’s success in integrating           DOF generally concurred with our four
       budget and performance goal information;           recommendations, and we consider manage-
       and benchmark the Corporation’s CPC                ment’s actions taken or planned responsive.
       process against other agreed-upon agencies’        We benchmarked the FDIC’s CPC process
       or organizations’ processes.                       against other selected federal agencies’
                                                          planning and budget processes and provided
       We concluded that DOF has made progress            this information for management’s use.
       in reducing resources dedicated to the CPC
       and streamlining the CPC process. Most
       division and office representatives indicated
       that the resources and time required for the       Management of Major Projects
       2005 budget formulation process had been           Project management involves defining,
       reduced. DOF streamlined the cycle time for        planning, scheduling, and controlling the
       the budget formulation exercise from over          tasks that must be completed to reach a goal
       6 months for the 2001 budget to 3 months           and allocating resources to perform those
       for the 2005 budget. Nevertheless, division        tasks. The FDIC has engaged in several
       and office representatives expressed concerns      multi-million dollar projects, such as the
       regarding several areas in the budget process,     NFE project discussed earlier, Central Data
       and we concluded that DOF could make sev-          Repository, and Virginia Square Phase II
       eral improvements to the FDIC’s planning           Construction. Without effective project
       and budget process.                                management, the FDIC runs the risk that
                                                          corporate requirements and user needs may
       The FDIC has also made progress in inte-           not be met in a timely, cost-effective manner.
       grating budget and performance goal infor-


20 SEMIANNUAL REPORT TO THE CONGRESS
In September 2002, the FDIC established            the FDIC is effectively following its estab-
the Capital Investment Review Committee            lished project control framework. Further,
(CIRC) as the control framework for deter-         DOA is planning for space utilization in light
mining whether a proposed investment               of corporate downsizing and has analyzed
is appropriate for the FDIC Board of Direc-        several options for disposition of vacant
tors’ consideration, overseeing approved           space at Virginia Square. We validated most
investments throughout their life cycle,           of the assumptions used in those options.
and providing quarterly capital investment         The report contains no recommendations.
reports to the Board. The CIRC generally           However, we encouraged DOA to work
monitors projects valued at more than              with the Division of Information Technology
$3 million. The FDIC later developed the           to develop more precise estimates of antici-
Chief Information Officer’s Council to rec-        pated on-site contractor staffing at Virginia
ommend and oversee technology strategies,          Square because the cost-benefit of one of
priorities, and progress. The work of the          the options was, in part, dependent on a suf-
Council encompasses the entire portfolio of        ficient number of contractors performing
technology projects, including those below         work at Virginia Square.
the threshold addressed by the CIRC.
                                                   CDR Project Management
Beginning with the 2003 budget, the FDIC           Financial institutions regulated by the
began budgeting and tracking capital invest-       Call Report agencies are required to submit
ment expenses as a separate component              quarterly Consolidated Reports of Condition
of the budget to enhance management’s              and Income, commonly referred to as Call
ability to focus on such projects. Project         Reports. To improve the regulatory call
funds established within the investment            reporting process, the FDIC, on behalf of
budget are to be available for the life of the     the Call Report agencies, entered into a
project rather than for the fiscal year. Final     $39 million contract with Unisys Corpora-
responsibility for approving the initial cre-      tion for the central data repository (CDR)
ation or modification of a project’s capital       system. The contract consists of a phased
investment budget rests with the FDIC’s            approach for implementing the new call
Board of Directors. In addition, the Division      reporting process. Among other benefits,
of Information Technology has recently             the CDR system (1) would provide data to
adopted the Rational Unified Process system        the industry more quickly in a manner that
development life cycle model and has estab-        allows more flexibility for data analysis and
lished a Program Management Office. Both           (2) would increase efficiencies, resulting in a
of these initiatives should result in additional   cost savings of $27 million over the 10-year
oversight and control mechanisms for cor-          life of the contract. The contract was modi-
porate projects.                                   fied in January 2005 to address industry
                                                   feedback and allow more time for system
Virginia Square Phase II Construction              testing and enrollment. The modification
As the Corporation’s Virginia Square Phase         revised the system deployment date from
II construction project progressed, we             October 2004 to September 2005. The CDR
conducted an evaluation to determine               Steering Committee was established to over-
whether: (1) project costs were within             see the system development effort under this
budget and tasks were being completed on           contract and includes representatives from
schedule, (2) the FDIC was following its           the Federal Reserve Board, the Office of the
established project control framework, and         Comptroller of the Currency, and the FDIC.
(3) the Division of Administration (DOA)
had planned for space utilization in light of      During the reporting period we conducted
corporate downsizing.                              an audit to determine whether CDR project
                                                   management was adequate. We concluded
We concluded that the Virginia Square Phase        that the CDR project management team had
II project costs are within budget and that        established adequate project management
tasks are being completed on schedule. Also,       controls. However, the CDR project has

                                                                    Management and Performance Challenges 21
       been faced with both management and tech-         FDIC Management of Travel Costs
       nical challenges associated with fielding new     The FDIC contracted with the Scheduled
       technology across multiple platforms, highly      Airlines Traffic Offices, Inc. (SatoTravel) to
       diverse users, and adopting new business          perform travel reservation services for FDIC
       practices associated with the call reporting      employees. SatoTravel assists the FDIC’s
       process. The project team has been unable         travelers in making official travel arrange-
       to overcome the challenges, and implemen-         ments that are consistent with the FDIC’s
       tation of the CDR system was delayed for          travel policies, cost considerations, and
       at least 1 year. This lack of progress raised     employee preferences, in that order. The
       concerns as to whether system functionality       FDIC executed the SatoTravel contract in
       as originally envisioned could be attained.       August 2002 with 1 base year and four 1-year
       The report contains three recommendations         options. The total compensation ceiling for
       intended to address the additional risks asso-    the 5-year contract period is $900,000. One
       ciated with the delayed implementation of         of our evaluations during the reporting
       system functionalities. The Corporation’s         period was designed to determine whether
       response to the draft report addressed the        the FDIC and SatoTravel are efficiently
       concerns we identified and was responsive         and effectively managing travel costs and
       to our recommendations.                           requirements under the contract.

                                                         We determined that the FDIC can improve
                                                         monitoring and controls over its travel
       Cost Containment and                              program. Specifically, DOF suspended a
       Procurement Integrity                             requirement for bank examiners to make
       As steward for the BIF, SAIF, and the Federal     lodging reservations through SatoTravel,
       Savings and Loan Insurance Corporation            which, in turn, reduced the amount of
       Resolution Fund, the FDIC strives to identify     rebates the FDIC received under the contract
       and implement measures to contain and             for hotel reservations. As a result, DOF
       reduce costs, either through more careful         is exceeding the SatoTravel contract compen-
       spending or by assessing and making               sation ceiling amount. We estimated that
       changes in business processes to increase         the FDIC may exceed the 5-year contract
       efficiency. A key challenge to containing         compensation ceiling price by $367,000—a
       costs relates to the contracting area. To         contract increase of 40 percent. In late July
       assist the Corporation in accomplishing its       2005, DOA approved additional funding to
       mission, contractors provide a variety of         cover anticipated contract costs through
       services. To contain costs, the FDIC must         September 2006.
       ensure that its acquisition framework—its
       policies, procedures, and internal controls—      In addition, the FDIC could further reduce
       is marked by sound planning; consistent           travel costs and increase program controls by
       use of competition; fairness; well-structured     increasing the number of travelers that stay
       contracts designed to result in cost-effective,   in hotels that offer commissions to the FDIC
       quality performance from contractors; and         and use SatoTravel’s on-line reservation sys-
       vigilant oversight management to ensure           tem to make lodging arrangements. Further,
       the receipt of goods and services at fair and     DOF requires the use of the government-
       reasonable prices.                                issued travel card only for airfare costs.
                                                         Requiring the use of the government travel
       Several of our assignments during the             card for all travel costs, including airline,
       reporting period addressed cost containment       hotel, and car rental would achieve modest
       and procurement issues. We evaluated two          savings in the form of rebates from the travel
       aspects of FDIC employee travel and also          card sponsor bank, strengthen management
       looked at the Corporation’s contract solicita-    control over the travel program by providing
       tion and evaluation process, as discussed         better information for planning and negoti-
       below.                                            ating travel services, and promote internal
                                                         consistency.

22 SEMIANNUAL REPORT TO THE CONGRESS
Finally, most government agencies are             ther, neither supervisory reviews nor DOF
required to use the General Services Admin-       audits of EM vouchers routinely detected
istration’s (GSA) eTravel Program by 2006.        unauthorized or unallowable claims. These
The goal of the eTravel program is to central-    control deficiencies over the administration
ize the federal government’s travel process       of the FDIC’s travel program created an
and reduce administrative travel expenses.        environment in which travel was not always
Although the FDIC is not required to use          authorized and expenses were not always
the eTravel program, it could improve or          claimed and paid according to the GTR.
eventually replace the FDIC’s current travel
program.                                          We made recommendations related to
                                                  reemphasizing certain travel policies to EMs,
We made five recommendations to bring             revising travel audit procedures, and ensur-
about improvements to the program.                ing that risk-based travel audits are effec-
Management agreed with four of our five           tively implemented.
recommendations and considered but
elected not to reinstate the policy requiring     Management agreed with four of our five
mandatory use of the national travel agency       recommendations and proposed an alterna-
for bank examiners.                               tive action that sufficiently addresses the fifth
                                                  recommendation. Management’s responsive
Inside Board Member and                           actions were promptly communicated to all
Executive Manager Travel                          corporate EMs.
The FDIC General Travel Regulations (GTR)
governs employee travel. The FDIC expects         Contract Solicitation and
all employees traveling on official business to   Evaluation Process
exercise the same prudent care in incurring       We conducted an audit to determine if the
reimbursable expenses as though traveling         FDIC (1) achieved adequate price competi-
on personal business. The FDIC’s DOF is           tion in its contract solicitation process in
responsible for maintaining the GTR, pro-         order to obtain fair and reasonable prices for
cessing travel expense reimbursement              goods and services and (2) complied with
vouchers and, when appropriate, auditing          the Acquisition Policy Manual (APM) solici-
travel claims. The FDIC’s Board of Directors      tation and proposal evaluation requirements.
and Executive Managers (EM) have height-
ened visibility as corporate leaders and          We determined that the Acquisition Services
frequently travel to represent the FDIC.          Branch generally complied with the APM’s
(For the purpose of our report, we referred       solicitation and evaluation requirements.
to both Executive Managers and inside             Further, the Acquisition Services Branch
Board members as EMs.)                            achieved adequate price competition for the
                                                  purpose of obtaining fair and reasonable
We performed an evaluation to determine           prices. However, the FDIC did not always
whether EM travel was authorized,                 request price reductions on contracts
approved, and paid in accordance with the         awarded through GSA’s Multiple Award
GTR. Our review focused on temporary              Schedule (MAS) program. Requesting price
duty travel from July 1, 2002 through             reductions from MAS contractors could
September 30, 2004 for 3 inside Board             result in more favorable pricing due to
members and 89 EMs. We selected a judg-           market fluctuations that cause discounts
mental sample of 25 vouchers based on             to be offered.
traveler frequency and expense claim
amounts.                                          We recommended that DOA revise the APM
                                                  to require the contracting officer to seek
We found that EM travel for the vouchers          price reductions on contracts awarded
reviewed was not always authorized in accor-      through GSA’s MAS program unless there
dance with the GTR, and travel claims that        are extenuating circumstances, or based on
were paid were not always allowable. Fur-         price analysis or other assessment, the con-

                                                                    Management and Performance Challenges 23
       tracting officer determines that the MAS          from an information system enhancement
       contract price represents the best value at       project, the Asset Servicing Technology
       the lowest possible price. In such cases, the     Enhancement Project (ASTEP), which is
       contracting officer should be required to         intended to create an integrated solution
       document the reason for not seeking a             to meet the FDIC’s current and future asset
       price reduction.                                  servicing responsibilities based on industry
                                                         standards, best practices, and adaptable tech-
       DOA did not agree that the APM should be          nology. Successfully implementing ASTEP
       modified. However, DOA agreed that the            is an important aspect of DRR mission
       contracting officer must adequately docu-         achievement.
       ment the basis for determining that prices
       are fair and reasonable and represent the best
       value for the FDIC. DOA has reminded the
       contracting officers of their responsibility      DRR’s Pre-closing Planning Process
       to evaluate and document price evaluations        During the reporting period, we audited
       and has established a training program            DRR’s pre-closing planning process for
       related to price evaluation. DOA’s alternative    resolving troubled and failed FDIC-insured
       corrective actions were responsive.               financial depository institutions.
       Other work related to this challenge during       Based on our survey work, we found that
       the reporting period included two post-           DRR had a structured and efficient bank res-
       award contract billing audits. The billing        olution process and concluded that, overall,
       reviews identified $981,355 in questioned         DRR’s pre-closing planning process was ade-
       costs. Management is currently addressing         quate. Accordingly, we decided to conclude
       the findings in those audits.                     our field work after completion of the audit
                                                         survey, and we made no recommendations
                                                         in this report. We did, however, suggest that
       Resolution and                                    in light of DRR downsizing, DRR may need
       Receivership Activities                           to reconsider the existing internal control
                                                         structure for the pre-closing planning
       One of the FDIC’s key responsibilities            process given the substantive changes in
       is planning and efficiently handling the          its operations.
       franchise marketing of failing FDIC-insured
       institutions and providing prompt, respon-        We also had an ongoing audit of DRR’s
       sive, and efficient resolution of failed finan-   ASTEP program during the reporting
       cial institutions. There has been a significant   period, the objective of which was to deter-
       decline in bank failures over the past several    mine project management effectiveness
       years. However, planning models for               in developing and deploying the ASTEP
       responding to failing and failed institutions,    solution.
       including large or multiple bank failures,
       need to be evaluated, revisited, and tested
       for adequacy in light of the impact of recent
       corporate and external events. These include
       FDIC downsizing activities, the continued
       threat of terrorist-related activities, and
       natural disasters that change the operating
       environment in which FDIC resources must
       react.

       In addition, the Division of Resolutions and
       Receiverships (DRR) faces other challenges



24 SEMIANNUAL REPORT TO THE CONGRESS
                                                   Investigations:
                                                   Making an Impact

The Office of Investigations (OI) carries out      Currently, 73 percent of our caseload is com-
the investigative mission of the OIG. Agents       prised of investigations involving financial
in Washington, D.C.; Atlanta; Dallas; and          institution fraud. The focus of our work in
Chicago conduct investigations of alleged          this area is on
criminal or otherwise prohibited activities
that may harm or threaten to harm the oper-        ■   FDIC-supervised institutions
ations or integrity of the FDIC and its pro-
grams. OI also operates an Electronic              ■   Fraud by officers, directors, or insiders
Crimes Unit (ECU) and laboratory in Wash-
ington, D.C. The ECU is responsible for            ■   Obstruction of examinations
conducting computer-related investigations
impacting the FDIC, including employee
cases involving computer abuse, and provid-
ing computer forensic support to investiga-
tions nationwide. OI also manages the OIG
Hotline for employees, contractors, and oth-                            Investigative Statistics
                                                                  April 1, 2005—September 30, 2005
ers to report allegations of fraud, waste,
abuse, and mismanagement via a toll-free               Judicial Actions:
number or e-mail.                                        Indictments/Informations . . . . . . . . . . . . . . . . . 22
                                                         Convictions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
We concentrate our investigative efforts on            OIG Investigations Resulted in:
those cases of most significance or potential            Fines of. . . . . . . . . . . . . . . . . . . . . . . . . . . . $13,000
impact to the FDIC and its programs. The                 Restitution of . . . . . . . . . . . . . . . . . . . . $4,932,490
goal, in part, is to bring a halt to the fraudu-         Other Monetary Recoveries of . . . . . . . . $463,895
lent conduct under investigation, protect the            Total . . . . . . . . . . . . . . . . . . . . . . . . . . . $5,409,385
FDIC and other victims from further harm,              Cases Referred to the Department of
and assist the FDIC in recovery of its losses.         Justice (U.S. Attorney) . . . . . . . . . . . . . . . . . . . . . 29
Another consideration in dedicating re-
sources to these cases is the need to pursue           Referrals to FDIC Management . . . . . . . . . . . . . . . 1
appropriate criminal penalties not only to             OIG Cases Conducted Jointly with
punish the offender but to deter others from           Other Agencies. . . . . . . . . . . . . . . . . . . . . . . . . . . . 80
participating in similar crimes.


                                                                                                                               25
         ■   Fraud leading to the failure of the            pay. OI works closely with the Division of
             institution                                    Resolutions and Receiverships (DRR) and
                                                            the Legal Division in aggressively pursuing
         ■   Fraud impacting multiple institutions          investigations of these individuals.

         ■   Fraud involving monetary losses                Although currently only about 5 percent
             that could significantly impact                of our caseload, the OIG must commit
             the institution                                resources to investigations of criminal or
                                                            serious misconduct on the part of FDIC
         As referenced earlier in this report, many of      employees. These are among the most sensi-
         these cases address instances of failed corpo-     tive of OIG cases and are critical to ensure
         rate governance. That is, in a number of sit-      the integrity of, and public confidence in,
         uations, the senior executives of the financial    FDIC operations. Other cases may address
         institution are involved in unscrupulous           consumer protection matters, such as mis-
         activities that cause serious problems and         representations regarding FDIC affiliation
         even failures of the institutions.                 or insurance. Several such cases are
                                                            described later in this section.
         In addition to pursuing financial institution-
         related cases, the OIG commits resources
         to investigations that target fraud by FDIC        Joint Efforts
         debtors seeking to conceal their assets from       The OIG works closely with U.S. Attorneys’
         the FDIC. These cases made up 15 percent           Offices throughout the country in attempt-
         of our caseload as of September 30, 2005.          ing to bring to justice individuals who have
                                                            defrauded the FDIC. The prosecutorial skills
         The FDIC was owed more than $1.7 billion
                                                            and outstanding direction provided by Assis-
         in criminal restitution as of September 30,
                                                            tant U.S. Attorneys with whom we work are
         2005. In most instances, the individuals
                                                            critical to our success. The results we are
         subject to these restitution orders do not
                                                            reporting for the last 6 months reflect the
         have the means to pay. The focus of OIG
                                                            efforts in the U.S. Attorneys’ Offices in the
         investigations in this area is on those individ-
                                                            Central District of Illinois, District of Col-
         uals who do have the means to pay, but hide
                                                            orado, District of Nebraska, District of
         their assets and/or lie about their ability to
                                                            Connecticut, District of Minnesota, District
                                                            of South Carolina, Northern District of
 Figure 2: Office of Investigations Case                    Texas, Northern District of Iowa, District
           Distribution (as of September 30, 2005)          of New Mexico, Northern District of Missis-
                                                            sippi, Western District of Oklahoma, District
                                                            of Alaska, and the Eastern District of Vir-
                                                            ginia. In addition to working with local U.S.
                                                            Attorneys’ Offices, the OIG worked with trial
                                                            Attorneys from the Fraud Section of the U.S.
                                                            Department of Justice and State Prosecutors
                                                            from the Missouri Attorney General’s Office.

                                                            Support and cooperation among other law
                                                            enforcement agencies is also a key ingredient
                                                            for success in the investigative community.
                                                            We frequently “partner” with the Federal
                                                            Bureau of Investigation (FBI), the Internal
                                                            Revenue Service Criminal Investigation Divi-
                                                            sion (IRS CID), the U.S. Postal Inspection
                                                            Service, and other law enforcement agencies

26 SEMIANNUAL REPORT TO THE CONGRESS
in conducting investigations                                         Results
of joint interest.                 “The type of scheme
                                   alleged in today’s                Over the last 6 months,
Also vital to our success is                                         OI opened 33 new cases
our partnership with FDIC          indictment brings to              and closed 18 cases, leaving
program offices. We coordi-        mind the familiar                 130 cases underway at the
nate closely with the FDIC’s                                         end of the period. Our work
Division of Supervision and
                                   saying, ‘If it looks too          during the period led to
Consumer Protection (DSC)          good to be true, it               indictments or criminal
in investigating fraud at                                            charges against 22 individuals
                                   probably is’.”                    and convictions of 19 defen-
financial institutions, and
with DRR and the Legal                                               dants. Criminal charges
Division in investigations                     U.S. Attorney         remained pending against
involving failed institutions                Jan Paul Miller         34 individuals as of the end
and fraud by FDIC debtors.                    commenting on          of the reporting period.
Our ECU coordinates closely                      indictment of       Fines, restitutions, and recov-
with the Division of Infor-            land “flipping” scheme        eries resulting from our cases
mation Technology in carry-                                          totaled $5,409,385.
ing out its mission. The
successes highlighted for the period would         The following are highlights of some of the
not have been possible without the collabo-        results from our investigative activity over
ration of these offices.                           the last 6 months.

In addition to carrying out its direct
investigative responsibilities, the OIG is        Fraud Arising at or Impacting
committed to providing training and sharing
information with FDIC components and              Financial Institutions
other regulators based on “lessons learned”       Three Businessmen Charged in $8 Million
regarding red flags and fraud schemes identi-     Real Estate “Land Flip” Scheme
fied through our investigations. OI agents        A federal grand jury in the Central District
provide training and frequently give presen-      of Illinois returned an 11-count superseding
tations to FDIC staff during regional and         indictment adding a third businessman to
field office meetings. We are also called upon    a rental real estate land flipping scheme in
by the Federal Financial Institutions Exami-      Decatur, Illinois. The 11-count superseding
nation Council, state banking regulatory          indictment charged the three businessmen
agencies, and law enforcement agencies to         with bank fraud, mail fraud, money launder-
present case studies.                             ing, and wire fraud.




                                                  Property purchased at fraudulently inflated prices.

                                                                                 Investigations: Making an Impact 27
From 1999 through 2005, the defendants              ■   the two defendants would make the loan
allegedly engaged in a real estate land flip-           payments directly to the mortgage
ping scheme to defraud real estate lenders,             lenders; and
including Central Illinois Bank, Champaign,
Illinois, an FDIC-insured institution, buyers       ■   the two defendants would buy back the
and sellers. The scheme involved more than              properties on a contract for deed.
150 fraudulent real estate sales and financing
transactions totaling more than $8 million in       The two businessmen allegedly made more
fraud against financial institutions.               than $3 million for their personal use and
                                                    to promote the scheme, while the real estate
The superseding indictment alleged that the         appraiser received fees of $350 to $450 per
defendants used fraudulent appraisals to buy,       appraisal.
sell, and finance properties at prices fraudu-
lently inflated. Two of the defendants falsely      Joint investigation by the FDIC OIG, the U.S.
represented themselves as property managers         Postal Inspection Service and the FBI; prose-
who were in the business of buying, selling,        cuted by the U.S. Attorney’s Office for the
and managing real estate. The third defen-          Central District of Illinois.
dant was a licensed real estate appraiser who
allegedly performed numerous appraisals for         Jury Finds Two Defendants Guilty in
the two defendants in which he falsely              Connection with BestBank Failure
inflated the value of the real estate.              After a 3-week trial in the U.S. District Court
                                                    in Denver, the owners of Century Financial
To carry out the scheme, two of the defen-          Services, Inc., and its successor, Century
dants recruited buyers, typically of modest         Financial Group, Inc., were found guilty by
means with little or no experience in rental        a federal jury on charges of bank fraud, wire
real estate investment. To entice the buyers,       fraud, filing false bank reports, and continu-
the two defendants allegedly made one or            ing a financial crimes enterprise in connec-
more representations to them regarding              tion with the 1998 failure of BestBank,
prospective properties:                                              Boulder, Colorado.

■   they would be paid as         “This type of scheme             By way of background, the
    much as $5,000 for each                                        defendants operated a portfo-
    property purchased;           diminishes confidence            lio of subprime credit cards
                                  in our national bank-            issued by BestBank from 1994
■   they could purchase                                            through 1998. When Best-
    properties for no money
                                  ing system; the defen-           Bank was closed in July 1998,
    down;                         dants in this case               its largest asset was the portfo-
                                  personally made a                lio of subprime credit card
■   the properties were                                            accounts with a reported value
    worth the appraised           tremendous amount                of more than $200 million.
    amounts;                      of money at the                  Subprime credit card borrow-
                                                                   ers are high-risk borrowers
■   assistance would be           expense of Americans             with poor credit histories.
    provided in making loan       who rely on our bank-            The credit card accounts were
    applications to mortgage                                       funded by BestBank using
    lenders;
                                  ing system.”                     money from depositors. Best-
                                                                   Bank attracted depositors by
                                                U.S. Attorney
■   the two defendants                                             offering above-market interest
                                                   Bill Leone
    would act as the buyer’s                                       rates.
                                            commenting on
    property manager, and
                                           guilty verdicts in
    would locate tenants and                                       From 1994 through July 1998,
                                      BestBank investigation
    collect the rents;                                             the defendants engaged in a

 28 SEMIANNUAL REPORT TO THE CONGRESS
                                                   Most people did not pay the mandatory
                                                   $20 fee required before the account was
                                                   funded. Over 50 percent of the subprime
                                                   borrowers’ accounts were non-performing.
                                                   The defendants and Century Financial
                                                   fraudulently concealed the subprime bor-
                                                   rowers’ non-performance and delinquency
                                                   rates by reporting non-performing accounts
                                                   as performing. The defendants paid $20 to
                                                   some accounts so they would appear to be
                                                   performing when in fact they were not.

                                                   Also charged in the BestBank failure are the
Travel club marketing materials                    former owner, chief executive officer and
                                                   chairman of the board of directors; the for-
                                                   mer president and director; and the former
 business operation that made more than            chief financial officer and director. The case
 500,000 BestBank credit card loans to sub-        against these three defendants is pending and
 prime borrowers. In July 1998, the Col-           no trial date has been set.
 orado State Banking Commissioner and the
 FDIC determined that the value of the sub-        The defendants each received more than
 prime credit card loans maintained as an          $5 million during the course of the fraudu-
 asset on the books of BestBank was over-          lent scheme. Each of them faces a possible
 stated because delinquent loans were fraudu-      mandatory minimum sentence of 10 years to
 lently made to appear non-delinquent.             life in federal prison and fines of up to twice
 BestBank’s liability to its depositors exceeded   the amount gained from committing the
 the value of its other assets, making it insol-   offense.
 vent and one of the largest bank failures,
 with losses exceeding $200 million.               Joint investigation by the FDIC OIG, the FBI,
                                                   and the IRS CID; prosecuted by the U.S. Attor-
 BestBank entered into agreements with Cen-        ney’s Office for the District of Colorado and the
 tury Financial and the defendants to market       U.S. Department of Justice.
 BestBank credit cards to subprime borrow-
 ers. Century Financial sold $498 travel club      Former Vice President of Bank of Sierra
 memberships, marketed first through Uni-          Blanca Arrested on Bank Fraud Charges
 versal Tour Travel Club and later through         A federal grand jury in the U.S. District
 All Around Travel Club. In almost every           Court for the Western District of Texas
 instance, those who signed up for the travel      returned a 21-count indictment against
 club did not pay cash for their membership.       the former vice president of Bank of Sierra
 Instead, BestBank and Century Financial           Blanca (BSB), Sierra Blanca, Texas. The
 offered to finance a travel club membership       grand jury charged the defendant with
 for subprime borrowers using a newly issued       1 count of bank fraud and 20 counts of
 BestBank VISA credit card. The credit limit       misapplication of bank funds.
 for the subprime borrowers as provided by
 the bank was $600. BestBank also charged          By way of background, on January 18, 2002,
 fees, which immediately brought the borrow-       the Bank of Sierra Blanca was closed, and the
 ers close to the credit limit. Less than half     receiving bank, Security State Bank of Pecos
 of those who signed up for the travel club        was renamed TransPecos Sierra Blanca Bank.
 received even their membership materials.         The indictment alleges that from about 1995
                                                   until November 2001, the defendant devised
 The jury found that the defendants carried        a scheme to fraudulently obtain money,
 out a fraudulent scheme in several ways.          funds, credits, assets, securities, and other

                                                                 Investigations: Making an Impact 29
       property owned by and under the control          Colorado, an FDIC-insured institution. The
       of the Bank of Sierra Blanca. The defendant      losses from the scheme were approximately
       allegedly abused her position of trust within    $1.8 million. The defendant admitted that
       the bank, lied to bank personnel and cus-        between August 27, 2001, and July 30, 2003,
       tomers, made false entries in bank records,      he defrauded DCSB by making approxi-
       and stole bank money and credit. The defen-      mately $745,000 in loans to himself without
       dant allegedly misapplied money from the         board approval. This amount exceeded the
       accounts of the bank by various means,           bank’s limits of money that can be loaned to
       including over drafting checking accounts,       bank insiders. As part of the defendant’s plea
       obtaining funds through unauthorized             agreement, he stipulated to an action under
       transfers, using bank and customers’ funds       Section 8(e) of the Federal Deposit Insur-
       to pay personal debts and debts of others,       ance Act, which provides a lifetime ban from
       and causing the bank to pay unauthorized         banking.
       interest rates on deposits. The indictment
       further alleged that the defendant attempted     Joint investigation by the FDIC OIG, FBI, and
       to conceal her activities by making false        Federal Reserve Board OIG; prosecuted by the
       entries in the bank’s accounting system, cre-    U.S. Attorney’s Office for the District of
       ating a fictitious account under her control,    Nebraska.
       and misapplying additional money and
       credit from other accounts of the bank and       Former Bank President of Connecticut Bank
       using those funds to replenish accounts          of Commerce Pleads Guilty
       victimized by previous thefts.                   The former president of Connecticut Bank
                                                        of Commerce, Stamford, Connecticut,
       Through her scheme, the defendant allegedly      pleaded guilty in the U.S. District Court for
       converted approximately $1.2 million             the District of Connecticut to a one-count
       belonging to the bank and its customers for      criminal information charging him with
       her personal use.                                misapplication of bank funds.

       Joint investigation by the FDIC OIG and the      According to the information, the defendant,
       FBI; prosecuted by the U. S. Attorney’s Office   at the direction of the former chairman of
       for the Western District of Texas.               the Connecticut Bank of Commerce board
                                                        of directors, caused a $1.35 million loan to
       Former President of Deuel County State           be made to an entity known as Moore Advi-
       Bank Sentenced to 4 Years in Prison              sors, Inc. (Moore), and further caused the
       The former president of the Deuel County         loan proceeds to be wired to a bank account
       State Bank (DCSB), Chappell, Nebraska, was       held in the company’s name. At the time the
       sentenced in the U.S. District Court for the     loan was made, the defendant knew that no
       District of Nebraska. Earlier, the defendant     Board approval had been obtained for the
       pleaded guilty to a one-count bill of infor-     loan, which was required; knew he had no
       mation charging him with bank fraud. He          documentation to suggest that Moore had
       received 4 years’ imprisonment, 5 years’         any assets, income, or other means to sup-
       supervised probation upon release, and was       port the loan; and knew that the natural
       ordered to pay $1.9 million in restitution.      effect of his actions was to put the bank
                                                        at substantial risk of loss.
       This case was initiated based on information
       reported by DSC and DRR indicating that          The former chairman of the Connecticut
       DCSB, an institution supervised by the Fed-      Bank of Commerce board of directors was
       eral Reserve was near failure as a result of     sentenced in January 2005 to 51 months’
       a check kiting and fraudulent loan scheme        incarceration and 36 months’ supervised
       perpetrated by the defendant. The kiting was     release after pleading guilty to one count of
       conducted between DCSB and a sister insti-       misapplication of bank funds. No criminal
       tution, Haxtun Community Bank, Haxtun,           restitution was ordered by the court because

30 SEMIANNUAL REPORT TO THE CONGRESS
the parties agreed that the former chairman’s        of the House Regulated Industries Commit-
payment of $8.5 million to the FDIC as part          tee, which oversaw the legislation regarding
of his settlement of the agency’s administra-        utility companies. According to the indict-
tive charges satisfied all losses directly related   ment, the Representative used his position
to his criminal conduct.                             to enact legislation permitting utility compa-
                                                     nies to use energy conservation funds for
Joint investigation by the FDIC and FBI; pros-       research and development projects. Once
ecuted by the U.S. Attorney’s Office for the Dis-    the legislation was enacted, he used his
trict of Connecticut.                                position to coerce the utility companies to
                                                     pay $650,000 in grants to Northern Pole, a
Former Bank President at Town & Country              Minnesota corporation created to recycle
Bank Sentenced and Former State of                   old utility poles. The Representative had
Minnesota Representative Found Guilty in             a significant equity stake in Northern Pole.
Bank Failure
The former president of Town & Country               The Representative had a personal and
Bank of Almelund (T&C Bank), Almelund,               business relationship with the former
Minnesota, was sentenced in the District of          president of T&C Bank. As alleged in
Minnesota to 18 months’ incarceration with           the indictment, the two devised a scheme
3 years’ supervised release and was ordered          whereby the defendant would invest in
to pay $1.35 million in restitution to the           Northern Pole, a troubled credit of T&C
FDIC.                                                Bank. The scheme involved borrowing
                                                     money from T&C Bank in the name of the
The defendant earlier pleaded guilty to              Representative’s other businesses, diverting
1 count of conspiracy to commit bank fraud           those funds to Northern Pole and other trou-
and 1 count of money laundering of an                bled credits of the bank, and using State of
11-count superseding indictment charging             Minnesota grant money to pay back the debt
him with bank fraud, money laundering,               service on the loans.
false bank entries, and conspiracy. The
superseding indictment alleged that the              Throughout this investigation, OIG agents
defendant and others executed a scheme to            have been coordinating with DSC, DRR, and
defraud the former T&C Bank by manipulat-            the Legal Division.
ing over 20 false lines of credit that resulted
in the failure of the bank in July 2000 when         Joint investigation by the FDIC OIG, the FBI,
the State of Minnesota declared the bank             and the IRS CID; prosecuted by the U.S. Attor-
insolvent and appointed the FDIC as                  ney’s Office for the District of Minnesota.
receiver. The failure of T&C Bank resulted
in an estimated loss of $3.4 million to the          Owners of Stardancer Casinos, Inc.
FDIC Bank Insurance Fund.                            Indicted on Tax Fraud
                                                     In the District of South Carolina, Florence
Former State of Minnesota                            Division, the owners of Stardancer Casinos,
Representative Found Guilty                          Inc., (Stardancer) of Duluth, Georgia, were
After a 2-week trial in July 2005 in the Dis-        charged in an 18-count indictment with tax
trict of Minnesota, a former State of Min-           fraud for the period April 2001 to November
nesota Representative was found guilty on            2002.
two counts of mail fraud and one count of
money laundering in connection with his              The president and chief executive officer of
activity with the former T&C Bank. He was            Stardancer and the executive vice president
found not guilty on two other counts of mail         operated casino boats in Little River, South
fraud, one other count of money laundering,          Carolina, and several locations in Florida
and one count of conspiracy.                         from February 1999 through January 2003.
                                                     The defendants were charged with withhold-
During the Representative’s tenure in the            ing employment taxes from Stardancer
Minnesota House, he served as the chairman           employees’ payroll checks and failing to pay
                                                                             Investigations: Making an Impact 31
                                                          against three business associates employed
                                                          by BetterHomes of Dallas and an employee
                                                          of American Title and Capital Title of Dallas.
                                                          The seven-count indictment charged the
                                                          four defendants with bank fraud, mail fraud,
                                                          wire fraud, and conspiracy.

                                                          The indictment alleged that from December
                                                          2002 through March 2004, the four defen-
                                                          dants engaged in a real estate scheme to
                                                          defraud various real estate lenders, buyers,
                                                          and sellers, including Fremont Investment
                                                          and Loan, an FDIC-supervised institution.
        One of Stardancer’s gambling vessels              The indictment alleged that the three defen-
        seized by the government.
                                                          dants from BetterHomes of Dallas recruited
                                                          straw purchasers and borrowers to purchase
       those taxes to the U.S. government, resulting      and finance single-family residences they
       in a loss to the government of approximately       had located and submitted fraudulent loan
       $1.15 million.                                     documents to the lenders in the name of
                                                          the straw borrowers indicating the down
       The investigation into Stardancer was initi-       payment for the loans had been made by the
       ated in February 2002, when the former             borrowers. The employee of the title com-
       president of the Oakwood Deposit Bank              pany would release the loan proceeds early to
       Company, Oakwood, Ohio, confessed to               the three defendants from BetterHomes, who
       embezzling over $40 million from Oakwood           would then purchase cashiers’ checks in the
       Deposit Bank Company, which led to the             name of the straw borrowers to obtain loans
       bank’s insolvency. The former president            in an amount greater than the value of the
       admitted that most of the money was                residences. The indictment further alleged
       embezzled to Stardancer. Investigators even-       that the defendants caused inflated loan
       tually determined that over $43 million was        amounts to be funded by mortgage lenders
       embezzled to Stardancer and ultimately shut        and financial institutions, and conspired to
       down the company in January 2003, with the         distribute the fraudulently obtained loan
       execution of search warrants and seizure of        proceeds among themselves and others. The
       Stardancer’s gambling vessels and shuttle          three defendants also executed contracts
       craft. The former president pleaded guilty         between their company, BetterHomes of Dal-
       to embezzlement and money laundering and           las, and the straw borrowers stating the com-
       was sentenced to 14 years’ imprisonment            pany would be responsible for the loans, but
       and was ordered to pay $48,718,405 in resti-       they failed to fulfill their contract.
       tution.
                                                          Joint investigation by the FDIC OIG and the
       Joint investigation by the FDIC OIG, the           FBI; prosecuted by the U.S. Attorney’s Office
       IRS CID, and FBI; prosecuted by the U.S.           for the Northern District of Texas.
       Attorney’s Office for the District of South Car-
       olina.                                             Former Vice President of Republic Bank
                                                          Indicted on Bank Fraud
                                                          The Grand Jury in the U.S. District Court for
                                                          Minnesota indicted the former vice president
       Additional Indictments                             and loan officer of Republic Bank, Duluth,
       Four Business Associates Charged in                Minnesota, on one count of bank fraud.
       $2.16 Million Real Estate Fraud Scheme
       A federal grand jury in the Northern District      This case was initiated based on a referral
       of Texas returned a seven-count indictment         from DSC, Kansas City, following the defen-

32 SEMIANNUAL REPORT TO THE CONGRESS
dant’s removal from Republic Bank. The             ets, which caused funds to be credited to an
indictment alleged that the defendant made         inactive customer bank account. After the
a series of fraudulent loans that benefited        inactive account was credited with the funds,
him personally and caused a loss to Republic       the defendant transferred the funds to her
Bank of approximately $608,000. The defen-         personal bank accounts. She continued her
dant allegedly embezzled the funds by using        scheme by requesting cash from bank tellers
a variety of fictitious loans, nominee loans,      and then submitting fraudulent debit and
and fraudulent loans to family members. He         credit tickets to cover up and balance the
also allegedly forged a number of bank offi-       transactions. Losses attributed to this
cers’ signatures on documents and created          scheme resulted in approximately $667,658
false documents to support loan fund dis-          being fraudulently obtained from Citizens
bursements. He is also charged with con-           Bank.
verting two repossessed automobiles to his
own use.                                           Joint investigation by the FDIC OIG and FBI;
                                                   prosecuted by the U.S. Attorney’s Office for the
Joint investigation by the FDIC OIG and FBI;       District of New Mexico.
prosecuted by the U.S. Attorney’s Office for the
District of Minnesota.                             Former President of Garnavillo Savings
                                                   Bank Pleads Guilty to Bank Fraud
Former Executive Vice President of Iowa-           The former president of Garnavillo Savings
Nebraska State Bank Indicted                       Bank, Garnavillo, Texas, pleaded guilty in the
The former executive vice president of Iowa-       U.S. District Court for the Northern District
Nebraska State Bank, South Sioux City,             of Iowa to a one-count information charging
Nebraska, converted $125,000 in an unse-           him with bank fraud. He admitted to exe-
cured loan to a bank customer and falsely          cuting a scheme between 1996 and 2003 to
stated that the purpose of the loan was for        embezzle funds of more than $157,000 from
“operating expenses” and “for the purchase         Garnavillo Savings Bank. As part of his plea
(down payment) of video lottery machines”          agreement, the former president stipulated
when in fact the defendant knew that the           to an action under Section 8(e) of the Fed-
borrower was going to transfer the loan pro-       eral Deposit Insurance Act, which provides
ceeds back to him. The defendant used the          a lifetime ban from banking, and he also
proceeds of the loan for his personal benefit,     agreed to pay $157,009 in restitution.
including paying off his two daughters’ car
loans. The defendant was indicted in the           Joint investigation by the FDIC OIG and FBI;
U.S. District Court for the Northern District      prosecuted by the U.S. Attorney’s Office for the
of Iowa on two counts of making false              Northern District of Iowa.
entries in bank records.
                                                   Bank Customer Pleads Guilty to Bank Fraud
Joint investigation by the FDIC OIG and the        A bank customer from Omaha, Nebraska,
FBI; prosecuted by the U.S. Attorney’s Office      pleaded guilty to one count of bank fraud
for the Northern District of Iowa.                 in the U.S. District Court of Nebraska. In
                                                   February 2004 the defendant was indicted
                                                   on charges from a check-kiting scheme he
                                                   engaged in during 2000. The indictment
Guilty Pleas                                       alleged that the defendant kited checks
Former Officer of New Mexico Bank Pleads           between accounts maintained at Nebraska
Guilty to Bank Fraud                               State Bank and Mid-City Bank for his
A former assistant vice president of Citizens      personal and business purposes. Losses
Bank, Farmington, New Mexico, pleaded              from the check-kite totaled approximately
guilty in the District of New Mexico to a          $2.7 million.
one-count information charging her with
bank fraud. The defendant admitted to
submitting fraudulent debit and credit tick-
                                                                             Investigations: Making an Impact 33
       DSC provided the information leading to the        Former Executive Vice President of
       joint investigation by the FDIC OIG and FBI;       Minnwest Bank South Sentenced
       prosecuted by the U.S. Attorney’s Office for the   The former executive vice president and
       District of Nebraska.                              chief loan officer for Minnwest Bank South,
                                                          Slayton, Minnesota, converted bank funds
       Bank Borrower Pleads Guilty to Bank Fraud          to his financially troubled business, initiated
       A borrower at the State Bank of Belle Plaine,      nominee loans, and made false entries to
       Belle Plaine, Minnesota, pleaded guilty in         conceal the true status of the nominee loans
       the U.S. District Court for the District of        from the FDIC and other bank officers.
       Minnesota to a one-count information               The former executive vice president pleaded
       charging her with bank fraud. The defen-           guilty to conspiracy to commit bank fraud
       dant participated in the accounts receivable       in the District of Minnesota and was sen-
       purchase loan program with the State Bank          tenced to 5 months’ imprisonment, and
       of Belle Plaine and admitted to creating and       3 years’ supervised release. He was ordered
       submitting fraudulent invoices causing the         to pay $37,000 in restitution to Minnwest
       bank to advance approximately $107,000             Bank South, and he stipulated to an action
       on false invoices.                                 under Section 8(e) of the Federal Deposit
                                                          Insurance Act, which provides a lifetime
       Joint investigation by the FDIC OIG, FBI, and      ban from banking.
       U.S. Secret Service; prosecuted by the U.S.
       Attorney’s Office for the District of Minnesota.   Joint investigation by the FDIC OIG and FBI;
                                                          prosecuted by the U.S. Atorney’s Office for the
                                                          District of Minnesota.
       Sentencings                                        Former Cashier Sentenced for Bank
       Bank Customer Sentenced in Bank of                 Embezzlement
       Falkner’s Failure                                  A former cashier of First State Bank, Canute,
       In the continuing investigation of the Sep-        Oklahoma, was sentenced in the U.S. District
       tember 2000 failure of the Bank of Falkner,        Court for the Western District of Oklahoma.
       Falkner, Mississippi, a bank customer was          The defendant, who had earlier pleaded
       sentenced in the Northern District of Missis-      guilty to a one-count information charging
       sippi to serve 36 months in prison followed        her with bank embezzlement, received
       by 60 months of supervised release. He was         12 months and 1 day of incarceration,
       also ordered to pay restitution to the FDIC        3 years of supervised release, and was
       in the amount of $1.16 million. The bank           ordered to pay $122,547 in restitution.
       customer’s sentence resulted from an earlier       The investigation revealed that the defen-
       guilty plea to a two-count criminal informa-       dant misappropriated and embezzled
       tion charging him with making and causing          $122,547 in cash from customer accounts
       false entries in the books, reports, and state-    by altering approximately 63 customer
       ments of the Bank of Falkner, with respect         deposits. The defendant altered bank
       to a series of nominee loans he received. He       records in an effort to conceal her activities
       was also charged with money laundering in          and disguise the paper trail associated with
       connection with his use of the proceeds of         the transactions. As part of the defendant’s
       the nominee loans.                                 plea agreement, she stipulated to an action
                                                          under Section 8(e) of the Federal Deposit
       Joint investigation by the FDIC OIG and FBI;       Insurance Act, which provides a lifetime ban
       prosecuted by the U.S. Attorney’s Office for the   from banking.
       Northern District of Mississippi.
                                                          Joint investigation by the FDIC OIG and FBI;
                                                          prosecuted by the U.S. Attorney’s Office for the
                                                          Western District of Oklahoma.


34 SEMIANNUAL REPORT TO THE CONGRESS
Former Employees of Stevens Financial            Restitution and Other Debt Owed
Group Sentenced in Sinclair National             to the FDIC
Bank Failure
In past semiannual reports, we have reported     FDIC Debtor Sentenced to 28 Months in
a number of results of investigations and        Prison for Making False Statement
prosecutions involving the failure of Sinclair   An FDIC debtor from Del Ray Beach,
National Bank, which caused a loss of            Florida, was sentenced in the U. S. District
$4.5 million to the Bank Insurance Fund.         Court, District of Connecticut, to 28 months
During the reporting period, an attorney         in prison to be followed by 3 years’ super-
and a public accountant and former opera-        vised release; 300 hours of community
tions manager for the now defunct Stevens        service; and was ordered to continue making
Financial Group (SFG) and a contractor to        payments of his remaining $2.7 million resti-
Sinclair National Bank were sentenced in         tution debt owed to the FDIC as a result of
St. Louis County Circuit Court in Missouri,      his 1996 bank fraud conviction.
regarding the securities fraud investigation.
The attorney pleaded guilty to one count         The debtor had earlier pleaded guilty to
of false statements and was sentenced to         making a false statement. He and his girl-
2 years’ probation and ordered to surrender      friend were previously indicted after our
his law license. The accountant and former       investigation developed evidence that they
operations manager pleaded guilty to two         had participated in a scheme to fraudulently
counts of false statements and was sentenced     conceal assets from the FDIC. During the
to 5 years’ probation, and ordered to pay        plea hearing, the defendant admitted that he
$25,000 in restitution to the State of Mis-      had made a false statement concerning his
souri and to perform 1,000 hours of com-         ownership of a $100,000 U.S. Treasury Bond.
munity service.                                  He also acknowledged that in a response
                                                 to an interrogatory sent to him by the U.S.
The defendants admitted that they and            Attorney’s Office, he represented that he did
others created false and misleading docu-        not possess or have any interest in any bonds
ments to inflate the net worth of SFG by over    when, in truth, he maintained an account
$10 million. The investigation disclosed that    with a brokerage firm in which the bond,
the defendants created millions of dollars       with a cash value of approximately $70,000
in fraudulent notes receivable to assist         was held. The defendant also made signifi-
SFG officials in disguising SFG’s negative       cant income through his various business
net worth. SFG sold over $15 million in          endeavors such as a used-car business, yacht
subprime loans to Sinclair National Bank,        brokerage activities, and real estate transac-
an institution that failed in September 2001.    tions, all of which he failed to disclose to the
Sinclair National Bank incurred substantial      U.S. Probation Office.
losses on these subprime loans and the losses
ultimately caused the failure of the bank.       The defendant’s girlfriend pleaded guilty
                                                 to assisting him in his concealment of assets
Joint investigation by the FDIC OIG, FBI, and    from the FDIC and was earlier sentenced to
Treasury OIG; prosecuted by the Missouri         6 months’ incarceration and 3 years’ proba-
Attorney General’s Office and the Fraud Sec-     tion; she was also ordered to pay a fine of
tion of the U.S. Department of Justice, Wash-    $5,000 and to perform 150 hours of commu-
ington, D.C.                                     nity service. She admitted that she knew the
                                                 defendant owed $2.7 million in restitution
                                                 and that she assisted him in later concealing
                                                 his assets by permitting him to buy and sell
                                                 real estate in her name.




                                                                           Investigations: Making an Impact 35
       This case was investigated by the FDIC OIG;         institutions. The investors’ certificates of
       prosecuted by the U.S. Attorney’s Office, Dis-      deposit were custodialized and held in the
       trict of Connecticut.                               name of UCC. The defendants falsely
                                                           and fraudulently failed to advise investors
                                                           nationwide that SCS and UCC would
                                                           subtract undisclosed fees ranging from
       FDIC Debtor Makes Full Payment                      3 percent to 57 percent of the amount
       of Restitution                                      invested. They made false representations
       While under investigation by the OIG for            regarding FDIC insurance coverage of the
       allegedly concealing assets from the FDIC,          certificates of deposit. The investment
       an FDIC debtor paid in full his outstanding         confirmations and statements they sent
       restitution obligation of $453,894 to the           to investors were false and intentionally
       FDIC. The defendant had been subject to             misleading, and money paid to investors
       the restitution order since his 2003 guilty         when they liquidated an investment prior
       plea for defrauding Alaska State Bank.              to maturity was actually money invested
                                                           by another investment or by other persons.
       The defendant had previously claimed he             The investors had no ownership in any
       had no access to money and was not able to          investment that would be purchased in
       make restitution payments. Based on infor-          UCC’s name. In 1997, SCS, along with its
       mation received from an anonymous source,           co-owners, had been banned by the National
       the OIG learned that the residence of the           Credit Union Administration from doing
       defendant’s daughter had been paid off. This        business with federally insured credit unions
       information was provided to the U.S. Attor-         because of their deceptive practices. Sen-
       ney’s Office for the District of Alaska. When       tencing for both defendants is scheduled for
       the defendant’s daughter was notified that          December 2005.
       her financial records had been subpoenaed, a
       check for full restitution was remitted to the      Joint investigation by the FDIC OIG and the
       FDIC by the defendant’s wife.                       FBI; prosecuted by the U.S. Attorney’s Office
                                                           for the Northern District of Texas.
       The OIG coordinated with the Legal Division
       and the District of Alaska Financial Litigation
       Unit to assist the U.S. Attorney’s Office in        Identity Theft
       making this collection.
                                                           Former National Institutes of Health Federal
                                                           Credit Union Employee Pleads Guilty to
                                                           Bank Fraud and Identity Theft
       Misrepresentation Regarding                         A former National Institutes of Health Fed-
       FDIC Affiliation                                    eral Credit Union (NIH FCU) administrative
       Brokers Plead Guilty to Mail Fraud                  assistant pleaded guilty to a two-count infor-
       Two brokers pleaded guilty in the U.S. Dis-         mation charging her with conspiracy to
       trict Court for the Northern District of Texas      commit bank fraud and identity theft in the
       to Count 57 of an 88-count superseding              U.S. District Court in the Eastern District of
       indictment, which charged both defendants           Virginia.
       with mail fraud. The defendants were
       co-owners of San Clemente Securities, Inc.,         Investigation determined that in March
       (SCS) and United Custodial Corporation              2004, the defendant defrauded the NIH FCU
       (UCC), located in San Clemente, California.         by using the identities of FDIC employees to
                                                           open accounts and apply for loans at the
       Beginning in early June 1995 and continuing         NIH FCU. The defendant was provided the
       through April 2001, SCS advertised FDIC-            identifiers of approximately 27 current and
       insured certificates of deposit at interest rates   former FDIC employees by a co-conspirator.
       greater than those available from financial         The defendant then opened accounts in each

36 SEMIANNUAL REPORT TO THE CONGRESS
employee’s name. Once the accounts were            graphic materials to determine whether
opened, the co-conspirator applied on-line         any child pornography existed on the hard
for loans and when the loans were approved,        drives. None of the hard drives analyzed
the funds were deposited electronically into       contained any known child pornographic
each account. The defendant would then             images.
prepare and submit withdrawal slips for
funds from these accounts. The defendant           Based on discussions with the FDIC’s Divi-
concealed the fraudulent scheme by making          sion of Information Technology, the ECU
minimal monthly payments on each of the            also investigated six instances of alleged
loans with funds obtained from other fraud-        fictitious banks on the Internet that falsely
ulent loans.                                       advertised FDIC insurance. As a result, all
                                                   six of the bank Web sites were deactivated.
Due to the defendant’s knowledge of the
internal controls and her position within          Two Individuals Sentenced in Relation to
the NIH FCU, she was able to maintain this         FDIC Phishing Case
scheme for nearly 12 months before the             As previously reported, the ECU has been
fraud was discovered. The defendant fraud-         investigating a phishing scam involving the
ulently obtained nearly $450,000 in loans,         fraudulent use of the FDIC Web page. The
and the NIH FCU recognized a loss of nearly        scheme involved the use of a spam e-mail
$435,000. The defendant’s co-conspirator           threatening cancellation of FDIC account
has not yet been charged.                          insurance and a link to a fictitious Web site
                                                   that was made to look like the FDIC Web
Joint investigation by the FDIC OIG and FBI;       page. The fictitious Web site asked for
prosecuted by the U.S. Attorney’s Office for the   customer account and credit card informa-
Eastern District of Virginia.                      tion that would be used as part of an identity
                                                   theft scheme. The subjects were previously
                                                   arrested and convicted as part of the identity
                                                   theft ring associated with the phishing
Electronic Crimes                                  scheme. One of the defendants was sen-
Unit Activities                                    tenced to 6 years in prison, and the other
The OIG ECU continued its support of               defendant was sentenced to 4 years in prison
ongoing FDIC OIG investigations by provid-         by the Leeds Crown Court, Leeds, England.
ing computer forensic assistance. Specifi-         The OIG continues to work on this case with
cally, the ECU imaged and analyzed 25 new          the FBI, the U.S. Secret Service, and the
computer hard drives during the reporting          National High-Tech Crimes Unit from the
period. In addition, the ECU conducted key-        United Kingdom.
word searches on new and existing electronic
evidence producing thousands of search hits
that were potentially helpful in ongoing OIG       Other Highlights
cases. The ECU also found relevant docu-
ments and e-mails in support of OIG cases.         Electronic Crimes Unit Presentation to DSC
                                                   Information Technology Examiners
The ECU also assisted the FDIC’s Division          OI’s ECU gave a presentation to a group of
of Information Technology in investigating         DSC Information Technology Examiners
employee misuse of FDIC computer re-               from the Technology Supervision Branch.
sources. The ECU assisted the Division of          The presentation included a PowerPoint
Information Technology in two cases during         presentation that covered the formation
the reporting period by determining whether        and responsibilities of the ECU as well as an
any criminal activity occurred in relation to      overview of computer forensics. The ECU
the misuse of FDIC computers. Specifically,        also provided the group with a tour of the
the ECU analyzed computer hard drives of           ECU forensic lab that included a demonstra-
FDIC employees accused of accessing porno-         tion of the forensic equipment and software

                                                                            Investigations: Making an Impact 37
       used by the ECU. Additionally, the ECU                    commended for his exceptional work in a
       discussed and demonstrated the variety of                 joint investigation with the FBI and IRS CID
       computer equipment and media on which                     in the prosecution of the former Chairman
       the ECU can perform forensic analysis. The                of the Board of Directors of Connecticut
       ECU answered questions from the DSC                       Bank of Commerce.
       examiners, and both sides agreed that our
       groups can profit greatly by working together
       and sharing information in the future.

       FDIC OIG Honors Federal Prosecutor
       Special Agent in Charge Tom McDade and
       Special Agent Cindy Van Noy presented
       Assistant United States Attorney, Arnie Huf-
       talen, District of New Hampshire, Concord,
       New Hampshire, with a plaque for his suc-
       cessful prosecution of an FDIC debtor who
       provided false financial information in an                L to R: Assistant U.S. Attorney Christopher (Kit)
       affidavit of his financial condition to the               Schmeisser; Special Agent Gary Sherrill; Special Agent
                                                                 Jeffrey Bonwell, FBI; and Special Agent Thomas
       FDIC. Also in connection with this case,                  Buchanan, FBI.
       the OIG acknowledged Robert Schwarzlose,
       DRR, Dallas, whose efforts contributed to
       the successful prosecution of the debtor.                 FDIC OIG Recognizes State Prosecutors
                                                                 Special Agent in Charge Tom McDade and
                                                                 Special Agent C. Edward Slagle presented Liz
                                                                 Bock, Assistant Attorney General, and Ron
                                                                 Carrier, Chief Counsel, Missouri Attorney
                                                                 General’s Office, with a plaque recognizing
                                                                 them for their outstanding work during the
                                                                 prosecution of Sinclair National Bank.




        L to R: Arnie Huftalen, Cindy Van Noy, and Tom McDade.



       OIG Special Agent Honored at U.S.
       Attorney’s Office Awards Ceremony
       On June 14, 2005, the United States Attor-
       ney’s Office, District of Connecticut, held its
       2005 United States Attorney’s Awards Cere-                L to R: Ed Slagle, Tom McDade, Ron Carrier, and Liz Bock.

       mony at the Aldermanic Chambers, New
       Haven, Connecticut. The purpose of the
       ceremony was to acknowledge a select num-
       ber of significant prosecutions adjudicated
       during the past year and honor those who
       had contributed to the success of these
       prosecutions. Special Agent Gary Sherrill
       from the OIG OI was among the honorees
       at the ceremony. Special Agent Sherrill was


38 SEMIANNUAL REPORT TO THE CONGRESS
 OIG Employees Receive Letter of                        OI Assistance at the Center for Missing and
 Commendation from the FBI                              Exploited Children
 On August 26, 2005, Special Agent C. Ed Sla-           OI provided the Center for Missing and
 gle and Laura Zach, OIG Auditor, received a            Exploited Children with law enforcement
 letter of commendation from the FBI Kansas             personnel to provide assistance in respond-
 City Office. The commendation recognized               ing to the overwhelming volume of calls the
 Special Agent Slagle and Ms. Zach for their            Center was receiving by individuals trying to
 outstanding efforts during the investigation           locate their families as a result of Hurricane
 of the Sinclair National Bank case.                    Katrina.




L to R: Tom McDade, Laura Zach, Ed Slagle, and Acting
Assistant Inspector General Sara Gibson.




                                                        Pictured (top to bottom) Special Agents Karen Davis and
                                                        Valerie Vines Toyer. Not pictured – Joan Dwyer and Matt
                                                        Alessandrino.




                                                                                     Investigations: Making an Impact 39
       OIG Special Agents Participate in 20th
       Annual Law Enforcement Torch Run
       OI staff participated in the 20th Annual Law
       Enforcement Torch Run/Walk to benefit the
       D.C. Special Olympics. The Law Enforce-
       ment Torch Run for Special Olympics D.C. is
       organized and conducted by over 40 federal
       and local law enforcement agencies. This
       annual project helps unify the law enforce-
       ment community, while enhancing the lives
       of over 2,000 local children and adults with
       developmental disabilities. Funds generated
       from the project underwrite the cost of the
       annual Special Olympics Summer Games.




                                                      OIG Office of Investigations’ staff assisting in the
                                                      Torch Run.




40 SEMIANNUAL REPORT TO THE CONGRESS
                                                   OIG Organization:
                                                   Pursuing OIG Goals

Our office continued to aggressively pursue            mendations. As discussed earlier in this
our four main OIG goals and related objec-             report, these reports address the manage-
tives during the reporting period. These               ment and performance challenges facing
goals and objectives form the blueprint for            the Corporation, as we identified them in
our work. While the audit, evaluation, and             December 2004.
investigative work described in the earlier
sections of this report drives our organiza-       ■   Conducted investigations that re-
tion and contributes very fundamentally to             sulted in 22 indictments/informations;
the accomplishment of our goals, a number              19 convictions; and approximately
of other activities and initiatives comple-            $5.4 million in total fines, restitution,
ment and support these efforts and enhance             and other monetary recoveries.
the achievement of our goals. Some exam-
ples follow.                                       ■   Performed 16 policy analyses on proposed
                                                       FDIC directives or proposed revisions to
                                                       directives. We raised policy suggestions
Value and Impact                                       regarding the draft directives, specifically
                                                       in the areas of the Risk-Related Premium
OIG products will add value by achieving signif-       System and information technology
icant impact related to addressing issues of           (IT) security risk management. We also
importance to the Chairman, the Congress, and          offered other suggestions to strengthen or
the public. This goal means that we contribute         clarify the draft policies.
to ensuring the protection of insured deposi-
tors, safety and soundness of FDIC-supervised      ■   Continued coordination of our Electronic
institutions, protection of consumer rights,           Crimes Unit with Division of Supervision
achievement of recovery to creditors of                and Consumer Protection (DSC), Legal
receiverships, and effective management of             Division, and Division of Information
agency resources. Efforts in support of this           Technology officials to establish appropri-
goal and related objectives include the                ate processes in addressing cyber crimes,
following:                                             including computer intrusion, phishing
                                                       and spoofing schemes, and investigations
■   Issued 23 audit and evaluation reports             of computer misuse by FDIC employees
    containing $981,355 in potential mone-             and contractors.
    tary benefits and 39 nonmonetary recom-

                                                                                                      41
       ■   Participated in an advisory capacity at       ■   Attended Hurricane Katrina Fraud Task
           meetings of the Audit Committee’s IT              Force meetings organized by the Depart-
           Security Subcommittee and FDIC Chief              ment of Justice. The Department of Jus-
           Information Officer’s Council.                    tice is relying on OIGs to play a major role
                                                             in addressing fraud in Hurricane Katrina
       ■   Responded to the Corporation’s solicita-          recovery efforts and has asked OIGs to
           tion of comments for proposed changes             publicize their efforts in this regard.
           to audit and reporting requirements for
           insured institutions (Notice of Proposed      ■   Established a Web page, as part of the
           Rulemaking, C.F.R. Part 363, Annual               Department of Justice’s Hurricane Katrina
           Independent Audits and Reporting                  Fraud Task Force, to provide contact
           Requirements).                                    information to financial institutions and
                                                             consumers in an effort to combat fraud in
       ■   Attended the Division of Administration’s         areas affected by the hurricane.
           Labor and Employee Relations seminar
           to discuss the role of the OIG’s Electronic   ■   Provided assistance to the Center for
           Crimes Unit in computer abuse cases.              Missing and Exploited Children in efforts
                                                             to help locate family members who were
       ■   Commented on Division of Information              separated from one another as a result of
           Technology’s E-Government Strategic               Hurricane Katrina.
           Plan.
                                                         ■   Met with audit representatives of other
       ■   Met, along with members of FDIC corpo-            financial regulatory OIGs (National
           rate management, with staff of House and          Credit Union Administration, Depart-
           Senate Banking Committees to discuss the          ment of the Treasury, Federal Reserve
           unauthorized release of FDIC employee             Board) to discuss potential audits of
           data.                                             hurricane relief and recovery efforts.

       ■   Formulated Fiscal Year 2006 Assignment
           Plan and provided draft listing of assign-    Communication
           ments to corporate management and the
           FDIC Vice Chairman in his role as Chair-      and Outreach
           man of the Audit Committee. Briefed           Communications between the OIG and the
           the Audit Committee on the proposed           Chairman, the Congress, employees, and other
           assignments in the plan.                      stakeholders will be effective. We seek to foster
                                                         effective agency relations and communications,
       ■   Attended meetings of the Interagency          congressional relations and communications,
           Bank Fraud Working Group.                     OIG employee relations and communications,
                                                         and relations and communications with other
       ■   Participated in the FDIC’s Fraud Confer-      OIG stakeholders. Efforts in support of this
           ence. OI, along with Assistant U.S.           goal and related objectives include the
           Attorneys gave three presentations at the     following:
           conference related to OI’s investigative
           work.                                         ■   Conducted seventh OIG Client Survey to
                                                             solicit views of corporate management on
       ■   Attended DSC’s New York Regional                  OIG products, processes, and services.
           Conference, where one of our investiga-
           tors gave a presentation on the Connecti-     ■   Participated in OIG/Legal/DRR quarterly
           cut Bank of Commerce case.                        meetings.

       ■   Attended meetings of the FDIC’s               ■   Played an active role in the Federal Audit
           Hurricane Task Force.                             Executive Council. Our Assistant Inspec-

42 SEMIANNUAL REPORT TO THE CONGRESS
    tor General for Audits is the Chair of the       tions; planned reviews; and possible leg-
    Federal Information Security Manage-             islative ideas.
    ment Act (FISMA)/Information Security
    Committee of the Council. Our Office of      ■   Informed House and Senate oversight
    Audits took the lead role in planning the        committee staff members of online avail-
    annual Federal Audit Executive Council           ability of selected OIG reports as such
    conference held in April 2005.                   reports were made publicly available.

■   Met with the Government Accountability       ■   Continued ongoing meetings between
    Office staff regarding the New Financial         the Executives of the OIG and the FDIC’s
    Environment, the OIG’s overall IT cover-         Division and Office Heads in both head-
    age, and FISMA work.                             quarters and regional offices to foster
                                                     and sustain successful cooperation and
■   Continued to attend the President’s              communication in all aspects of our audit,
    Council on Integrity and Efficiency              evaluation, and investigative activities.
    (PCIE) Inspections and Evaluations and           The Office of Investigations continued
    the Government Performance and Results           presentations in lessons learned/red flags
    Act Roundtable meetings to share infor-          based on its experience with failed institu-
    mation and best practices with attendees.        tions.

■   Participated at the PCIE/Executive Coun-     ■   Coordinated with Inspectors General,
    cil on Integrity and Efficiency Annual           Assistant Inspectors General for Audits,
    Conference at which our Assistant Inspec-        and Assistant Inspectors General for
    tor General for Audits gave a presentation       Investigations of federal financial institu-
    on IT Auditing.                                  tion regulatory agencies.

■   Made a presentation to participants in the   ■   Provided highlights reports to the FDIC
    Corporate Employee Program to provide            Chairman to keep him informed of signif-
    information on the OIG mission and               icant OIG events.
    work.
                                                 ■   Presented the results of OIG audit and
■   Provided briefing materials to the new           evaluation work at monthly meetings
    FDIC Vice Chairman to familiarize him            of the Audit Committee. These meetings
    with the FDIC OIG and its work at the            bring senior management attention to
    Corporation.                                     OIG findings, recommendations, and
                                                     related issues of significance.
■   Shared results of OIG work posted on our
    Web site through the FDIC’s Online Sub-
    scription Service.                           Human Capital
                                                 The OIG will align its human resources to sup-
■   Met with staff from the House and Senate
                                                 port the OIG mission. We aim to enhance our
    Appropriations Committees regarding the
    OIG’s fiscal year 2006 appropriation         workforce analysis and planning, competency
    request.                                     investments, leadership development, and the
                                                 development of a results-oriented, high-per-
■   Met with Office of Management and            formance culture. Efforts in support of this
    Budget, at its request, regarding proposed   goal and related objectives include the following:
    fiscal year 2007 budget.
                                                 ■   Convened meetings of the OIG’s
■   Briefed staff from the House Financial           Employee Advisory Group. This group
    Services and Senate Banking, Housing,            provides feedback to the Inspector Gen-
    and Urban Affairs Committees on com-             eral/Deputy Inspector General on the
    pleted audits, evaluations, and investiga-       working conditions and business

                                                                      OIG Organization: Pursuing OIG Goals 43
           processes of the office and keeps OIG              mance goals reflecting OIG emphasis
           staff informed of current issues of                on (1) adding value by achieving impact
           employee concern.                                  on issues of importance to the Corpora-
                                                              tion and our other stakeholders; (2) fos-
       ■   Participated in corporate diversity initia-        tering effective communications with
           tives and programs throughout the                  our stakeholders; (3) aligning human
           reporting period.                                  resources to support the OIG mission;
                                                              and (4) managing our resources effec-
       ■   Initiated a mentoring program for                  tively. We met or substantially met
           employees who have recently joined the             31, or 84 percent, of the 37 goals.
           OIG and new supervisors. The program
           will be designed to enhance employees’         ■   Announced reorganization of Office of
           job skills, empower employees, and pro-            Audits directorates —from six to three—
           mote good organizational citizenship.              to complement the Corporation’s princi-
                                                              pal operational areas: Insurance, Super-
       ■   Participated in the Inspector General              vision, and Receivership Management
           Community’s pilot implementation of                Audits; Systems Management and Security
           e-learning through SkillSoft. By leverag-          Audits; and Corporate Evaluations and
           ing technology, this program is designed           Audits.
           to offer quality training to OIG staff in a
           cost-effective, efficient manner.              ■   Restructured operating components by
                                                              eliminating quality assurance and over-
       ■   Participated in the Leadership Training            sight office and transferring staff and
           Program of the PCIE at the Federal Execu-          functions of that office to Office of Man-
           tive Institute in Charlottesville, Virginia.       agement and Congressional Relations
                                                              and Office of Audits.

       Productivity                                       ■   Installed upgraded TeamMate software to
                                                              enhance auditors’ maintaining of workpa-
       The OIG will effectively manage its resources.         pers.
       We have taken steps to contain OIG costs and
       undertook several initiatives to ensure that our   ■   Met with the Division of Information
       processes are efficient and that our products          Technology on issues related to enhancing
       meet quality standards. Efforts in support of          the OIG’s IT security.
       this goal and related objectives include the
       following:                                         ■   Modified manner in which OIG policies
       ■   The OIG’s fiscal year 2006 budget for              are maintained and disseminated—mov-
           $29,965,000 ($160,000 less than the                ing from electronic and hard copy system
           Congress appropriated for fiscal year              to electronic posting of policies on our
           2005) is awaiting congressional approval.          Intranet Web site, for enhanced efficiency.
           The 2006 budget represents the OIG’s
           tenth consecutive budget decrease after        ■   Formed working group to address
           adjusting for inflation.                           enhanced methods for strategically
                                                              planning and focusing OIG efforts.
       ■   Announced planned closure of the OIG’s
           audit offices in Atlanta and Chicago as
           part of an effort to downsize and consoli-
           date certain Office of Audits operations.

       ■   Issued the OIG’s Fiscal Year 2005
           Performance Report reporting progress
           on achievement of 37 annual perfor-

44 SEMIANNUAL REPORT TO THE CONGRESS
                                         OIG Organization Chart




                                         Points of Contact
Title                                                     Name                   Telephone Number

Inspector General                                         Vacant

Deputy Inspector General                             Patricia M. Black             202-416-2026

Counsel to the Inspector General                      Fred W. Gibson               202-416-2917

Assistant Inspector General for Audits                 Russell Rau                 202-416-2543

Deputy Assistant Inspector General                    Stephen Beard                202-416-4217
for Audits

Acting Assistant Inspector General                     Sara Gibson                 202-416-2920
for Investigations

Assistant Inspector General for                       Rex Simmons                  202-416-2483
Management and Congressional Relations




                                                                         OIG Organization: Pursuing OIG Goals 45
                                                     OIG Counsel Activities
                                                     (April–September 2005)

         The Office of Counsel (OC) provides independent legal advice and assistance to the Inspector General and the
         staff of the OIG. During the latter half of fiscal year 2005, OC engaged in wider multi-disciplinary activities, reflect-
         ing the current needs of a greater range of OIG stakeholders. OC represented the OIG at the Department of Home-
         land Security’s Inspector General Roundtable on security issues facing the Inspector General community. In the
         aftermath of Hurricane Katrina, OC participated in the Department of Justice’s Hurricane Katrina Fraud Task Force
         and engaged in discussions with other federal banking regulators to determine collaborative work dealing with
         the post-Katrina restoration efforts. Internally, OC participated in the development of a new process for enhanced
         planning and implementation of OIG work. Other activities from the reporting period are described below:


         Litigation                              OC represented the OIG in personnel cases before the Equal Employment
                                                 Opportunity Commission, Merit Systems Protection Board, and in litiga-
                                                 tion before the District Courts for the District of Columbia and the Middle
                                                 District of Florida. OC was involved in 28 litigation-related matters, 3 of
                                                 which were resolved during the period, and the remainder of which are
                                                 awaiting further action.

         Advice and Counseling                   OC provided advice and counsel, written opinions, and determinations of
                                                 legal applicability on issues arising during the course of audits, investi-
                                                 gations, and evaluations. Examples include analysis of: the statutory
                                                 authority of the Inspector General; the applicability of privacy-related
                                                 laws and regulations to the FDIC and its operations; banking law matters
                                                 including the FDIC’s Maximum Efficiency, Risk-focused, Institution Tar-
                                                 geted and compliance examination procedures, and the use of correc-
                                                 tive and enforcement actions; the FDIC’s deposit insurance assessment
                                                 program; and ethics-related and investigative matters. OC provided
                                                 input in conjunction with briefings of congressional committees, and met
                                                 with Congressional staff in support of Congressional oversight matters.
                                                 Counsel’s Office provided comments relative to the legal accuracy and
                                                 sufficiency of more than 14 audit and evaluation reports.

         Legislation/Regulation Review           OC reviewed proposed legislation S. 1332, the Personal Data Privacy and
                                                 Security Act of 2005, and reviewed and commented on three proposed
                                                 formal FDIC regulations, seven FDIC directives, and two OIG policies.

         Subpoenas                               OC prepared 10 subpoenas for issuance during this reporting period.

         Freedom of Information and/or           OC responded to four requests under the Freedom of Information Act.
         Privacy Act




46 SEMIANNUAL REPORT TO THE CONGRESS
Table 1: Significant OIG Achievements
             (April –September 2005)

Audit and Evaluation Reports Issued                                               23
Questioned Costs                                                                  $981, 355
Investigations Opened                                                             33
Investigations Closed                                                             18
OIG Subpoenas Issued                                                              10
Convictions                                                                       19
Fines, Restitution, and Monetary Recoveries                                       $5.4 million
Hotline Allegations Referred                                                      38
Proposed Regulations and Legislation Reviewed                                      4
Proposed FDIC Policies Reviewed                                                   16
Responses to Requests and Appeals Under the
  Freedom of Information Act                                                         4




Table 2: Nonmonetary Recommendations

April 2003–September 2003                                                         103
October 2003–March 2004                                                            51
April 2004–September 2004                                                          86
October 2004–March 2005                                                            37
April 2005–September 2005                                                          39




Figure 3: Products Issued and Investigations Closed

35
                                                                            4/03 – 9/03
                       31                            31
                                                                            10/03 – 3/04
30                                                                          4/04 – 9/04
                                                                            10/04 – 3/05
                                                            25              4/05 – 9/05
25                                  23
        20                                                             20
20                                                                              18
               17              17               17

15


10


 5


 0
             Audits & Evaluations                     Investigations




                                    OIG Organization: Pursuing OIG Goals 47
                            Figure 4: Questioned Costs/Funds Put to Better Use
                                           ($ in millions)

                            60

                                                                   51.2
                            50


                            40


                            30


                            20

                                                                                  11.9
                            10
                                                      4.3
                                     1.3                                                       0.98
                             0
                                 4/03 – 9/03     10/03 – 3/04   4/04 – 9/04   10/04 – 3/05   4/05 – 9/05




                            Figure 5: Fines, Restitution, and Monetary Recoveries
                                      Resulting from OIG Investigations ($ in millions)
                            80

                            70      68.1


                            60

                            50

                                                                   38.6
                            40

                            30
                                                                                  24.1

                            20

                            10                                                                  5.4
                                                      1.7
                             0
                                 4/03 – 9/03     10/03 – 3/04   4/04 – 9/04   10/04 – 3/05   4/05 – 9/05




48 SEMIANNUAL REPORT TO THE CONGRESS
                                                      Fiscal Year 2005
                                                      Performance Report
                                                      Summary

This Performance Report Summary presents              reflects the number of performance goals
a brief overview of our performance com-              that were Met, Substantially Met, or Not Met.
pared to our fiscal year (FY) 2005 annual
performance goals. It provides a statistical          As shown in the table, overall we met or
summary as well as narrative summary of               substantially met 31 of our 37 performance
performance results by strategic goal area.           goals (84 percent) in FY 2005. For the previ-
The full version of our performance report            ous reporting period (FY 2004), we had a
is available on our Web site at                       76-percent level of achievement of goals
www.fdicig.gov.                                       met or substantially met. We recognize that
                                                      organizational performance should not be
The four overall strategic goals, each with a         evaluated based solely on a statistical sum-
number of performance goals that we have              mary of measures – given that all measures
pursued during FY 2005 are shown in the               are not equal in weight and the quality of
following table, which provides a statistical         the measures is still evolving.
summary of our performance against the
performance goals for FY 2005. The table              A summary discussion of our performance
                                                      by strategic goal is presented below.


                                           FY 2005 Annual Performance Goal Accomplishment
         Strategic Goals                                   (Number of Goals)
                                 Met            Substantially Met       Not Met             Total

 OIG Products Add Value and
 Achieve Significant Impact        6                    1                  3                 10

 Communication with Stake-         6                    0                  1                  7
 holders Is Effective
 Human Resources Are Aligned       2                    1                  0                  3
 to Support the OIG Mission
 The OIG Effectively Manages      12                    3                  2                 17
 Resources
 Total                            26                    5                  6                 37
 Percentage                      70%                  14%                16%                100%

                                                                                                      49
       Strategic Goal 1:                                 holders under Strategic Goal 2. Significant
                                                         efforts in support of this strategic goal
       OIG Products Add Value and                        during the year included cosponsoring an
                                                         Emerging Issues in Banking symposium with
       Achieve Significant Impact                        the Federal Reserve Board and Department
       We met or substantially met 7 of our 10 per-      of the Treasury OIGs, hosting an open house
       formance goals to add value and achieve sig-      in our Electronic Crimes Unit laboratory
       nificant impact with our products and serv-       for FDIC executives, and continuing to
       ices under Strategic Goal 1. Of particular        meet regularly with FDIC executives and
       note, we achieved a 1.73 to 1 ratio of mone-      managers in both headquarters and regional
       tary benefits to operating costs for our audit    offices.
       operations, as measured over a 3-year period.
       In other words, we received a return of $1.73
       for each dollar spent on our audit operations     Strategic Goal 3:
       over the past 3 years. This exceeded our goal
       of achieving a 1:1 ratio. On the investigation    Human Resources Are
       side, 80 percent of our investigation cases       Aligned to Support the
       that were accepted for prosecution resulted
       in convictions, pleas, and/or settlements,
                                                         OIG Mission
       which exceeded our target of 70 percent.          We met or substantially met all three of our
                                                         performance goals to align human resources
       On a less positive note, we concluded that we     to support the OIG mission under Strategic
       did not meet two goals related to improving       Goal 3. Key results under this strategic goal
       client satisfaction with our audit, evaluation,   included establishing an OIG mentoring
       and investigation functions. As reflected in      program and participating in the Inspector
       our annual client survey, FDIC executives         General community’s pilot implementation
       voiced concerns about various aspects of          of e-learning training courses.
       our core functional areas. Many of these
       were similar to those raised in previous client
       surveys. We have developed action steps           Strategic Goal 4:
       to address these concerns as well as other
       opportunities for improvement identified          The OIG Effectively
       through the survey. We also recognize that        Manages Resources
       a certain tension between the OIG and its
       clients may be inherent in the nature of our      We met or substantially met 15 of our
       mission and have some bearing on client           17 performance goals to effectively manage
       survey results.                                   OIG resources under Strategic Goal 4. One
                                                         of our accomplishments under this strategic
                                                         goal was to develop a new Web-based Inves-
       Strategic Goal 2:                                 tigations Data System that will significantly
                                                         improve the previous system's availability
       Communication with                                and performance through improved
       Stakeholders Is Effective                         technology.

       We met or substantially met six of our seven
       performance goals to foster effective com-
       munications and outreach with our stake-




50 SEMIANNUAL REPORT TO THE CONGRESS
                                                                                  Reporting
                                                                                  Requirements


Index of Reporting Requirements—Inspector General
Act of 1978, as amended
Reporting Requirement                                                                                                                                 Page
Section 4(a)(2): Review of legislation and regulations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .46
Section 5(a)(1): Significant problems, abuses, and deficiencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .7-24
Section 5(a)(2): Recommendations with respect to significant problems, abuses,
  and deficiencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .7-24
Section 5(a)(3): Recommendations described in previous semiannual reports on which
  corrective action has not been completed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .54
Section 5(a)(4): Matters referred to prosecutive authorities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .25
Section 5(a)(5) and 6(b)(2): Summary of instances where requested information
  was refused . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .59
Section 5(a)(6): Listing of audit reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .57
Section 5(a)(7): Summary of particularly significant reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .7-24
Section 5(a)(8): Statistical table showing the total number of audit reports and the
  total dollar value of questioned costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .58
Section 5(a)(9): Statistical table showing the total number of audit reports and the
  total dollar value of recommendations that funds be put to better use . . . . . . . . . . . . . . . . . . . . . . . .59
Section 5(a)(10): Audit recommendations more than 6 months old for which
  no management decision has been made . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .59
Section 5(a)(11): Significant revised management decisions during the
  current reporting period . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .59
Section 5(a)(12): Significant management decisions with which the OIG disagreed . . . . . . . . . . . . . . .59

                                                                                                                                                                  51
                                                         Reader’s Guide to
                                                         Inspector General Act
                                                         Reporting Terms


What Happens When                                        documentation; or, a finding that the expen-
                                                         diture of funds for the intended purpose is
Auditors Identify                                        unnecessary or unreasonable.
Monetary Benefits?                                       The next step in the process is for FDIC
Our experience has found that the reporting              management to make a decision about the
terminology outlined in the Inspector Gen-               questioned costs. The Inspector General
eral Act of 1978, as amended, often confuses             Act describes a “management decision” as
people. To lessen such confusion and place               the final decision issued by management
these terms in proper context, we present the            after evaluation of the finding(s) and recom-
following discussion:                                    mendation(s) included in an audit report,
                                                         including actions deemed to be necessary.
The Inspector General Act defines the termi-             In the case of questioned costs, this manage-
nology and establishes the reporting require-            ment decision must specifically address the
ments for the identification and disposition             questioned costs by either disallowing or
of questioned costs in audit reports. To                 not disallowing these costs. A “disallowed
understand how this process works, it is                 cost,” according to the Inspector General Act,
helpful to know the key terms and how they               is a questioned cost that management, in
relate to each other.                                    a management decision, has sustained or
                                                         agreed should not be charged to the
The first step in the process is when the audit          government.
report identifying questioned costs* is issued
to FDIC management. Auditors question                    Once management has disallowed a cost
costs because of an alleged violation of                 and, in effect, sustained the auditor’s ques-
a provision of a law, regulation, contract,              tioned costs, the last step in the process takes
grant, cooperative agreement, or other agree-            place which culminates in the “final action.”
ment or document governing the expendi-                  As defined in the Inspector General Act, final
ture of funds. In addition, a questioned cost            action is the completion of all actions that
may be a finding in which, at the time of the            management has determined, via the man-
audit, a cost is not supported by adequate               agement decision process, are necessary to

* It is important to note that the OIG does not always
  expect 100 percent recovery of all costs questioned.

 52
resolve the findings and recommendations
included in an audit report. In the case of
disallowed costs, management will typically
evaluate factors beyond the conditions in the
audit report, such as qualitative judgments
of value received or the cost to litigate, and
decide whether it is in the Corporation’s best
interest to pursue recovery of the disallowed
costs. The Corporation is responsible for
reporting the disposition of the disallowed
costs, the amounts recovered, and amounts
not recovered.

Except for a few key differences, the process
for reports with recommendations that
funds be put to better use is generally the
same as the process for reports with ques-
tioned costs. The audit report recommends
an action that will result in funds to be used
more efficiently rather than identifying
amounts that may need to be eventually
recovered. Consequently, the management
decisions and final actions address the
implementation of the recommended
actions and not the disallowance or
recovery of costs.




                                           Reader’s Guide to Inspector General Act Reporting Terms 53
                                             Statistical Information
                                             Required by the
                                             Inspector General Act
                                             of 1978, as amended


Table I: Significant                         supplied by the FDIC’s Office of Enterprise
                                             Risk Management (OERM) and (2) the
Recommendations from                         OIG’s determination of closed recommenda-
Previous Semiannual                          tions for reports issued after March 31, 2002.
                                             These 16 recommendations from 7 reports
Reports on Which                             involve improvements in operations and
Corrective Actions Have                      programs. OERM has categorized the status
                                             of these recommendations as follows:
Not Been Completed
This table shows the corrective actions
management has agreed to implement but       Management Action in Process:
has not completed, along with associated
monetary amounts. In some cases, these       (16 recommendations from 7 reports)
corrective actions are different from the    Management is in the process of imple-
initial recommendations made in the audit    menting the corrective action plan, which
reports. However, the OIG has agreed that    may include modifications to policies, proce-
the planned actions meet the intent of the   dures, systems or controls; issues involving
initial recommendations. The information     monetary collection; and settlement negotia-
in this table is based on (1) information    tions in process.




 54
 Table I: Significant Recommendations from Previous Semiannual Reports on
          Which Corrective Actions Have Not Been Completed
                                             Significant
 Report Number,                              Recommendation         Brief Summary of Planned Corrective Actions
 Title & Date                                Number                 and Associated Monetary Amounts

Management Action In Process                          1*            Centralize Unix administration under one Division of Infor-
 04-008                                                             mation Resources Management organization. (Note: This
 Evaluation of FDIC’s                                               Division is now the Division of Information Technology.)
 Unix Systems Security
 February 13, 2004

 04-009                                               4             Research and investigate solutions and tools for aggregat-
 Evaluation of FDIC’s Intrusion                                     ing event information from different security logging
 Detection and Incident                                             devices to better distinguish malicious activity from nor-
 Response Capability                                                mal network traffic to reduce false positives.
 February 13, 2004

 04-016                                               3             Review all employees in moderate risk-level positions to
 FDIC’s Personnel                                                   ensure that appropriate background investigations have
 Security Program                                                   been performed.
 March 30, 2004

 04-028                                               1*            Revise FDIC Circular 1310.3 to delineate the FDIC’s com-
 FDIC’s IT Security Risk                                            plete information technology Security Risk Management
 Management Program –                                               Program. The revision should be consistent with the
 Overall Program Policies and                                       National Institute of Standards and Technology Special
 Procedures and the                                                 Publication 800-26 methodology.
 Risk Assessment Process
 July 30, 2004

 05-005                                               2*            Develop a performance measurement framework to con-
 FDIC’s Procurement of                                              sistently monitor and periodically report on the procure-
 Administrative Goods                                               ment process and progress toward achieving goals to
 and Services                                                       improve procurement economy and efficiency.
 January 21, 2005

 05-008                                               1             Propose to the Treasury Department and the other primary
 FDIC’s Supervision of an                                           federal regulators a requirement for institution manage-
 Institution’s Compliance                                           ment to periodically certify the implementation and over-
 with the Bank Secrecy Act (BSA)                                    sight of the institution's BSA compliance program.
 March 2, 2005

                                                      3*            Require transaction testing in all BSA compliance exami-
                                                                    nations by expanding the examination documentation
                                                                    module (ED Module) core procedures to include transac-
                                                                    tion testing.



                                                      4*            Require examiners to perform at least the first two risk-
                                                                    focused BSA examination procedures modules (core and
                                                                    expanded) at FDIC-supervised institutions if any one of a
                                                                    defined set of BSA assessment factors is present.


                                                      5*            Ensure that the adequacy of the BSA compliance program
                                                                    is a key component in the assignment of the management
                                                                    component rating in CAMELS.


*The OIG has not yet evaluated management’s actions in response to OIG recommendations.



                                                                                                 Statistical Information 55
 Table I: Significant Recommendations from Previous Semiannual Reports on
          Which Corrective Actions Have Not Been Completed (continued)
                                             Significant
 Report Number,                              Recommendation         Brief Summary of Planned Corrective Actions
 Title & Date                                Number                 and Associated Monetary Amounts

                                                      6*            Assess, in conjunction with the other Primary Federal
                                                                    Regulators, the merits of a numeric rating system for BSA
                                                                    compliance, similar to that of other specialty examination
                                                                    areas.


                                                      8*            Develop an internal control process to verify that all BSA
                                                                    violations are promptly included in the systems used to
                                                                    report this information to the Treasury Department.



                                                     11*            Establish procedures, including the use of the Monitoring
                                                                    and Tracking of BSA Problem Institutions list, to eliminate
                                                                    institutions with inadequate BSA compliance programs
                                                                    from consideration for eligibility to bid on franchises or
                                                                    failed bank assets.

 05-016                                               1             Ensure that division and office directors provide FDIC
 Security Controls Over the                                         employees and contractors with sufficiently detailed guid-
 FDIC’s Electronic Mail                                             ance to facilitate informed decisions on when to encrypt
 (E-Mail) Infrastructure                                            sensitive e-mail communications.
 March 31, 2005

                                                      2             Evaluate alternative solutions to augment the current
                                                                    implementation of Entrust/Express for securing sensitive
                                                                    e-mail communications.


                                                                    Evaluate the feasibility of implementing an e-mail policy
                                                      3
                                                                    compliance tool to achieve greater assurance that sensi-
                                                                    tive communications are encrypted when appropriate.


                                                                    Develop a security plan for the e-mail infrastructure that
                                                      5
                                                                    defines the FDIC's security requirements and existing and
                                                                    planned controls for ensuring those requirements are sat-
                                                                    isfied.




*The OIG has not yet evaluated management’s actions in response to OIG recommendations.



 56 SEMIANNUAL REPORT TO THE CONGRESS
 Table II: Audit Reports Issued by Subject Area
                               Audit Report                                   Questioned Costs
                                                                                                   Funds Put to
 Number and Date                                      Title                Total     Unsupported    Better Use

Supervision and Insurance
 05-026                         Capital Provision Requirements Estab-
 July 15, 2005                  lished Under Supervisory Corrective
                                Actions

 05-027                         Maximum Efficiency, Risk-focused,
 July 29, 2005                  Institution Targeted (MERIT) Eligibility
                                Process

 05-038                         Division of Supervision and Consumer
 September 23, 2005             Protection’s Risk-focused Compliance
                                Examination Process

 05-039                         Effectiveness of Supervisory Corrective
 September 28, 2005             Actions

Resolution, Receivership and
Legal Affairs
 05-028                         DRR’s Pre-Closing Planning Process
 August 8, 2005

Information Management
  05-019                        FDIC’s New Financial Environment (NFE)
  June 6, 2005                  Testing


 05-020                         Systems and Data Conversion for the
 June 9, 2005                   New Financial Environment


 05-022                         Central Data Repository Project
 June 15, 2005                  Management

 05-037                         Controls Over the Risk-Related Premium
                                System
 September 23, 2005

Information Assurance
  05-031                        FDIC’s Information Technology
  September 8, 2005             Configuration Management Controls
                                Over Operating System Software


 05-033                         Response to Privacy Program Information
 September 16, 2005             Request in OMB’s Fiscal Year 2005
                                Reporting Instructions for FISMA and
                                Agency Privacy Management

 05-034                         Responses to Security-Related Questions
 September 16, 2005             Raised in OMB’s Fiscal Year 2005 Report-
                                ing Instructions for FISMA and Agency
                                Privacy Management


 05-040                         Independent Evaluation of the FDIC’s
 September 29, 2005             Information Security Program – 2005




                                                                                    Statistical Information 57
  Table II: Audit Reports Issued by Subject Area                              (continued)


                                      Audit Report                                               Questioned Costs
                                                                                                                            Funds Put to
 Number and Date                                               Title                         Total        Unsupported        Better Use

Resources Management
 05-018                                Implementation of E-Government
 May 24, 2005                          Principles

 EVAL-05-021                           Status of Virginia Square Phase II
 June 10, 2005                         Construction

 05-024                                Inside Board Member and Executive
 June 28, 2005                         Manager Travel

 05-025                                FDIC’s Investment Policies
 July 14, 2005

 05-029                                Contract Solicitation and Evaluation
 August 11, 2005

 EVAL-05-032                           Follow-up Evaluation of the FDIC’s Corpo-
 September 16, 2005                    rate Planning Cycle

 EVAL-05-035                           FDIC’s Corporate University
 September 21, 2005

 EVAL-05-036                           FDIC’s Management of Travel Costs
 September 21, 2005

Post-award Contract Audits
 05-023                                Post-award Contract Audit                            $289,463
 June 24, 2005

 05-030                                Post-award Contract Audit                            $691,892           $20,000
 August 25, 2005


Totals for the Period                                                                       $981,355           $20,000


  Table III: Audit Reports Issued with Questioned Costs
                                                                                                          Questioned Costs
                                                                              Number
                                                                                                       Total             Unsupported

A. For which no management decision has been made by the                          3                    $354,153             $47,665
   commencement of the reporting period.
B. Which were issued during the reporting period.                                 2                    $981,355             $20,000
Subtotals of A & B                                                                5                  $1,335,508             $67,665
C. For which a management decision was made during the                            3                    $354,153             $47,665
   reporting period.
   (i) dollar value of disallowed costs.                                          1                       $675                $0
   (ii) dollar value of costs not disallowed.                                     3*                   $353,478             $47,665
D. For which no management decision has been made by the                          2                    $981,355             $20,000
   end of the reporting period.
  Reports for which no management decision was made                               0                      $0                      $0
  within 6 months of issuance.
*One report included on the line for costs not disallowed is also included on the line for costs disallowed because management
 did not agree with some of the questioned costs.

 58 SEMIANNUAL REPORT TO THE CONGRESS
  Table IV: Audit Reports Issued with Recommendations for Better Use of Funds
                                                                                         Number              Dollar Value

A. For which no management decision has been made by the commencement of                    2                   $361,430
   the reporting period.
B. Which were issued during the reporting period.                                           0                   $0

Subtotals of A & B                                                                          2                   $361,430

C. For which a management decision was made during the reporting period.                    2                   $361,430
   (i) dollar value of recommendations that were agreed to by management.                   0                    $0
        • based on proposed management action.                                              0                    $0
        • based on proposed legislative action.                                             0                    $0
   (ii) dollar value of recommendations that were not agreed to by management.              2                   $361,430
D. For which no management decision has been made by the end of the                         0                   $0
   reporting period.
   Reports for which no management decision was made within 6 months                        0                   $0
   of issuance.




 Table V: Status of OIG Recommendations Without Management Decisions
During this reporting period, there were no recommendations more than 6 months old without management decisions.




 Table VI: Significant Revised Management Decisions
During this reporting period, there were no significant revised management decisions.




 Table VII: Significant Management Decisions with Which the OIG Disagreed
During this reporting period, there were no significant management decisions with which the OIG disagreed.




  Table VIII: Instances Where Information Was Refused
During this reporting period, there were no instances where information was refused.




                                                                                            Statistical Information 59
                                                Farewell to OIG
                                                Retirees

                   Gary E. Gotherman            direction, the Office of Investigations’
                   Gary Gotherman retired       nationwide program for the prevention,
                   after more than 34 years     detection, and investigation of complex,
                   of federal service. During   white-collar crimes affecting the FDIC
                   his many years at the        became recognized throughout the federal
                   FDIC, he was a constant      law enforcement community as a model
                   source of information on     program, both for the results it achieved
                   the policies and practices   and for the effective relationships that Sam
                   of the FDIC OIG as it had    forged with the Corporation. Sam served
evolved over time. His career at the FDIC       his country for 30 years, initially at the U.S.
included performing liquidation and infor-      General Accounting Office where he was an
mation technology audits, managing the          original member of the Office of Special
OIG’s earlier internal quality assurance and    Investigations, and then at the Nuclear Regu-
internal control programs, coordinating         latory Commission and Social Security
issuance of weekly highlight reports to the     Administration Offices of Inspector General,
FDIC Chairman, and preparing the FDIC           where he held senior leadership positions.
OIG’s first semiannual reports to the Con-      In each professional undertaking, he led,
gress. Later, as Deputy Assistant Inspector     guided, and inspired those with whom he
General for Quality Assurance and Over-         came in contact.
sight, he provided excellent leadership on
a number of important strategic planning,
performance measurement, client survey,
internal control, and risk management           Robert L. McGregor
initiatives.                                    Robert McGregor retired after more than
                                                32 years of federal service. His federal career
                                                began in 1972 at the Department of
                                                Labor, where, among other posi-
                  Samuel M. Holland             tions, he served as the Director of
                  Samuel Holland retired        the Office of Financial Management
                  after serving as Assistant    Audits in the OIG. He also served as
                  Inspector General for         the Assistant Inspector General for
                  Investigations for 6 years    Oversight and Quality Assurance at
                  at the FDIC. Under his        the Resolution Trust Corporation

60
for 5 years. As such, he was responsible for      expertise, boundless energy, positive attitude,
programs and activities related to oversight      and strong support of accounting and audit-
of the quality of audit, evaluation, and inves-   ing professional organizations inspired her
tigative work, including work peformed by         colleagues and attested to her commitment
both the OIG and certified public account-        to make the FDIC OIG and the auditing
ants. Since 1996, Bob served as Assistant         community high-performing and highly
Inspector General for Quality Assurance and       effective entities.
Oversight at the FDIC where he was respon-
sible for providing leadership, coordination,     Clater J. Sommers
and oversight of the quality assurance of         Clater (Jim) Sommers retired
OIG programs, organizational self-assess-         after more than 30 years of federal
ments and quality improvement initiatives,        service. During his career, Jim
client and employee survey initiatives, risk      distinguished himself in service
management and internal control activities,       to the U.S. Army, Department of
and strategic planning and performance            Commerce, Air Force Audit Agency,
measurement activities.                           Government Printing Office,
                                                  Resolution Trust Corporation
                    Sharon M. Smith               (RTC), and FDIC. At the RTC and FDIC,
                    Sharon Smith retired after    Jim’s work focused on information technol-
                    more than 31 years of fed-    ogy (IT) issues. His many efforts on audits
                    eral service. She had the     of the RTC’s IT program were instrumental
                    special distinction of hav-   in helping to bring a swift and successful
                    ing spent her entire fed-     resolution to an unprecedented financial
                    eral career at the FDIC,      crisis. At the FDIC, his continued focus
                    and in that capacity was a    on IT program issues challenged the Cor-
                    constant source of invalu-    poration to explore new and innovative
able institutional knowledge from which all       approaches to effectively managing major
in the OIG benefited. Sharon began her            IT projects. Areas he audited included the
service in January 1974 as an internal auditor    Year 2000 effort, Time and Attendance Pro-
in the Office of Systems and Financial            cessing System, Corporate Human Resources
Audits. Over the years she excelled and           Management System, and Public Key
advanced, eventually becoming a key mem-          Infrastructure.
ber of the OIG’s senior leadership team.
Throughout her tenure at the FDIC, her




                                                                                   Farewell to OIG Retirees 61
                                      Abbreviations
                                      and Acronyms

APM     Acquisition Policy Manual     FBI       Federal Bureau of Investigation

ASTEP   Asset Servicing Technology    FDIC      Federal Deposit Insurance
        Enhancement Project                     Corporation

BIF     Bank Insurance Fund           FIAT      Formal and Informal Action
                                                Tracking system
BSA     Bank Secrecy Act
                                      FinCEN    Financial Crimes Enforcement
CIRC    Capital Investment Review               Network
        Committee
                                      FISMA     Federal Information Security
CPC     Corporate Planning Cycle                Management Act of 2002
CRA     Community Reinvestment Act    FOIA      Freedom of Information Act
CU      Corporate University          FY        Fiscal Year
DCSB    Deuel County State Bank       GSA       General Services Administration
DOA     Division of Administration    GTR       General Travel Regulations
DOF     Division of Finance           IBM       International Business Machines
DRR     Division of Resolutions and   ILC       industrial loan company
        Receiverships
                                      IRS CID   Internal Revenue Service Crimi-
DSC     Division of Supervision and             nal Investigation Division
        Consumer Protection
                                      IT        Information Technology
ECU     Electronic Crimes Unit
                                      MAS       Multiple Award Schedule
EM      Executive Managers


62
MERIT     Maximum Efficiency, Risk-          RRPS         Risk-Related Premium System
          focused, Institution Targeted
          Examination Program                SAIF         Savings Association Insurance
                                                          Fund
NFE       New Financial Environment
                                             SatoTravel   Scheduled Airlines Traffic
NIH FCU   National Institutes of Health                   Offices, Inc.
          Federal Credit Union
                                             SCS          San Clemente Securities, Inc.
OC        Office of Counsel
                                             SFG          Stevens Financial Group
OERM      Office of Enterprise Risk
          Management                         T&C B ank    Town & Country Bank of
                                                          Almelund
OI        Office of Investigations
                                             T&D          training and development
OIG       Office of Inspector General
                                             UCC          United Custodial Corporation
OMB       Office of Management and
          Budget                             USA          United and Strengthening
                                             PATRIOT      America by Providing
PCA       Prompt Corrective Action           Act          Appropriate Tools
                                                          Required to Intercept and
PCIE      President’s Council on Integrity                Obstruct Terrorism Act
          and Efficiency                                  of 2001
PMA       President’s Management Agenda

PwC       PricewaterhouseCoopers, LLC




                                                                         Abbreviations and Acronyms 63
